U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                    The Bureau of Alcohol, Tobacco,
                       Firearms and Explosives’
                     National Firearms Registration
                          and Transfer Record
                                      June 2007




                       Report Number I-2007-006
                               EXECUTIVE DIGEST


INTRODUCTION

       On June 26, 1934, Congress passed the National Firearms Act (NFA)
to limit the availability of machine guns, short-barreled shotguns, short-
barreled rifles, sound suppressors (silencers), and other similar weapons
that were often used by criminals during the Prohibition Era. 1 The NFA
imposed a tax on the manufacture, import, and distribution of NFA weapons
and required a registry of “all NFA firearms in the United States that were
not under the control of the United States [government].” 2 The Bureau of
Alcohol, Tobacco, Firearms and Explosives (ATF) collects the taxes and
maintains NFA weapon possession records in a central registry – an
electronic database called the National Firearms Registration and Transfer
Record (NFRTR), which contains records on almost 2 million weapons. 3
ATF’s NFA Branch (under the Firearms and Explosives Services Division,
Office of Enforcement Programs and Services) maintains the NFRTR and
processes all applications to make, manufacture, import, register, and
transfer NFA weapons.

       Congress expanded the scope of the NFA through the Gun Control Act
(GCA) of 1968 to include destructive devices (bombs, incendiary devices
such as flash bang grenades, and weapons with a bore of greater than one-
half inch), frames and receivers that can convert a semi-automatic weapon
into an automatic weapon firing multiple shots with one function of the
trigger, and other concealable weapons. 4 The GCA restricts registrations of




       1   26 U.S.C. § 5845 (1986).

       2 26 U.S.C. § 5845. NFA applicants must pay a $200 tax each time they make or

transfer an NFA weapon. Further, manufacturers, importers, and dealers must pay a
Special Occupational Tax (SOT) to do business in NFA weapons and are licensed as Special
Occupational Taxpayers. Manufacturers and importers are taxed $1,000 each year and
dealers are taxed $500.

       3   The NFRTR was automated in 1983.

       4  The GCA also defined the term “firearm” to exclude antique firearms or any
devices (excluding machine guns and destructive devices) that could be classified as
collectors’ items. 26 U.S.C. § 5845. Flash bang grenades are non-lethal, pyrotechnic
distraction devices used by law enforcement agencies, the military, and movie and
television productions.



U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation and Inspections Division
NFA weapons to only makers, manufacturers, and importers. 5 Private
citizens or individuals who meet eligibility under the NFA are allowed to
purchase, sell, possess, and transfer only previously registered NFA
weapons. Further, the GCA called for a 30-day amnesty period ending
December 1, 1968, where anyone possessing an NFA weapon could register
the weapon without consequence. However, any NFA weapon not registered
during the amnesty is considered contraband, cannot be registered, and
must be forfeited or voluntarily surrendered to ATF.

       On May 19, 1986, Congress passed the Firearms Owners’ Protection
Act to prohibit possession of machine guns that were not legally possessed
prior to its enactment. Thus, the Firearms Owners’ Protection Act allowed
newly manufactured machine guns to be available only to the U.S.
government (such as the U.S. military) and law enforcement entities after
May 19, 1986.

       NFA weapons and their owners must be registered with the NFRTR,
and whenever possession is transferred (through sale, rental, gift, or
bequest) the registration must be updated. An owner is required to retain
the approved NFA weapons application form as proof of a weapon’s
registration and make it available to ATF upon request. 6 Manufacturers,
importers, and makers of NFA weapons also are required to register each
newly made, manufactured, or imported weapon. Law enforcement agencies
are allowed to register weapons that have been seized or voluntarily
surrendered to the U.S. government.

       The Office of the Inspector General (OIG) examined ATF’s effectiveness
in maintaining the records of registrations and transfers of NFA weapons in
the NFRTR. The OIG conducted the review in response to requests from
members of Congress who had received letters from citizens expressing
concern about the accuracy and completeness of the NFRTR. These citizens
asserted that errors in the NFRTR and errors in decisions by NFA Branch
employees left NFA weapons owners vulnerable to unjust convictions for
violating the NFA.




       5  NFA weapons makers are unlicensed individuals who usually make one weapon
at a time for individual use. NFA weapons manufacturers are licensed to manufacture
weapons for sale and pay an annual Special Occupational Tax.

       6   26 U.S.C. § 5841(e).

U.S. Department of Justice                                                      ii
Office of the Inspector General
Evaluation and Inspections Division
RESULTS IN BRIEF

       We found that since 2004, the NFA Branch has improved significantly
the timeliness of both processing NFA weapons applications and responding
to customer inquiries. However, continuing management and technical
deficiencies contribute to inaccuracies in the NFRTR database. For
example, NFA Branch staff do not process applications or enter data into
the NFRTR in a consistent manner, which leads to errors in records and
inconsistent decisions on NFA weapons applications. In addition, the NFA
Branch has a backlog of record discrepancies between the NFRTR and
inventories of federal firearms licensees that were identified during ATF
compliance inspections. Further, the NFRTR’s software programming is
flawed and causes technical problems for those working in the database.
The lack of consistency in procedures and the backlog in reconciling
discrepancies, combined with the technical issues, result in errors in the
records, reports, and queries produced from the NFRTR. These errors affect
the NFRTR’s reliability as a regulatory tool when it is used during
compliance inspections of federal firearms licensees. However, we did not
find evidence that individual weapons owners or federal firearms licensees
had been sanctioned or criminally prosecuted because of errors in the
database, as asserted in the citizens’ letters.

      The NFA Branch Chief has recently initiated several actions to reduce
errors in the NFRTR, such as hiring additional staff, training staff,
improving communication with staff, and revising a procedures manual.
The NFA Branch Chief and the Assistant Director of the Office of
Enforcement Programs and Services both stated that lack of funding
precluded other significant actions such as correcting and upgrading the
programming for the NFRTR and implementing online submission of
applications.

       Our main findings are summarized below.

The NFA Branch has improved the timeliness of processing NFA
applications and responding to customer inquiries.

       The NFA Branch has decreased the amount of time it takes to process
NFA weapons applications and improved responsiveness to customer
inquiries. Between 2004 and 2006, the average processing time for all eight
types of NFA weapons applications decreased collectively from 30 days to 8
days. 7 In the same time period, the average processing time for the four

       7 The eight types of NFA weapons applications are Form 5320.20, Application to
Transport Interstate or to Temporarily Export Certain NFA Firearms; Form 1, Application to
Make and Register a Firearm; Form 2, Notice of Firearms Manufactured or Imported; Form

U.S. Department of Justice                                                          iii
Office of the Inspector General
Evaluation and Inspections Division
types of applications used by individual weapons owners (Forms 1 and 4)
and NFA weapons dealers (Forms 3 and 5) for registering and transferring
NFA weapons decreased collectively from 39 days to 10 days. Specifically,
processing time for Form 1 decreased from 99 days to 28 days; for Form 4,
from 81 days to 9 days; for Form 3, from 30 days to 4 days; and for Form 5,
30 days to 9 days. The NFA Branch Chief attributed the improved
processing times to the hiring of more contractor Data Entry Clerks, who
enter data from the paper forms into the NFRTR, thereby freeing other staff
to focus on reviewing the content of the applications. The NFA Branch has
improved its process for responding to customer inquiries by hiring
contractor Customer Service Representatives to staff the telephones and
answer questions, usually within 24 hours, from the public and ATF
personnel.

      To further improve customer service, the NFA Branch established a
working relationship with the National Firearms Act Trade and Collectors
Association (NFATCA), which represents NFA weapons dealers,
manufacturers, importers, and owners. To build that relationship, the NFA
Branch hosted a meeting with members of the NFATCA executive board in
2006 to demonstrate Branch operations and discuss NFA and NFRTR
issues. The NFA Branch and the NFATCA also collaborated to write a
handbook on the NFA and the weapons registration process, which ATF
plans to make available on its website. However, we found that the ATF
website’s generally poor structure makes it difficult to navigate or locate
relevant information and is a potential barrier to the electronic handbook’s
use.

       In interviews, NFATCA representatives told us that the process for
registering and transferring NFA weapons had “vastly improved” and that
members of the NFA weapons industry spoke highly of NFA Branch staff,
praising the staff’s progress in minimizing the time to process and approve
an application.

      ATF Industry Operations Investigators (IOI) and ATF Special Agents
we surveyed and interviewed were satisfied with the timeliness of the NFA
Branch’s response to their requests for inventory reports and records
checks from the NFRTR. IOIs use inventory reports during inspections of
federal firearms licensees and Special Agents use results from records
checks during criminal investigations. The NFA Branch usually completed

3, Application for Tax-Exempt Transfer of Firearm and Registration to Special Occupational
Taxpayer; Form 4, Application for Tax-Paid Transfer and Registration of a Firearm; Form 5,
Application for Tax-Exempt Transfer and Registration of a Firearm; Form 9, Application and
Permit for Permanent Exportation of a Firearm; and Form 10, Application for Registration
of Firearms Acquired by Certain Government Entities.

U.S. Department of Justice                                                          iv
Office of the Inspector General
Evaluation and Inspections Division
inventory reports 2 to 4 days after the Investigators’ requests and records
checks 2 to 3 days after the Special Agents’ requests, with urgent checks
completed within 1 day.

NFA Branch staff do not process NFA weapons applications or enter
data into the NFRTR in a consistent manner.

       We found that because of inadequate standard operating procedures,
training, and communication, NFA Branch staff members do not process
applications or enter data uniformly into the NFRTR. The staff’s variations
in completing these tasks result in errors in NFRTR records, reports, and
queries as well as inconsistent decisions on NFA weapons registration and
transfer applications.

       The NFA Branch does not provide staff with a comprehensive
standard operating procedures manual. The NFA Branch Chief inherited an
undated manual of standard operating procedures when he assumed his
position in 2005. The manual was under revision at the time of our review,
but the NFA Branch Chief told us that he has not had enough staff to
complete the revision.

      None of the staff members we interviewed had ever received a copy of
this manual as a resource to help them perform their duties. Instead, the
procedural memorandums and directives provided to NFA Branch staff as
guidance were usually specific to one issue and did not cover the basic
information needed to process applications and enter data into the NFRTR.
For example, NFA Branch staff stated that they did not have adequate
written direction on how to enter data such as abbreviations in the NFRTR,
how to maintain application files, how often to contact applicants with
pending applications, the proper method for fixing or working around
NFRTR technical flaws, and who has responsibility for correcting errors in
NFRTR records. Therefore, staff members relied on each other or on
managers to verbally explain what they believed were the procedures for
processing applications and navigating the NFRTR database.

       Additionally, training for new NFA Branch staff members is ad hoc
and not uniform. Staff members told us that because of the inadequate
training it was difficult to become familiar with the NFRTR and navigate
easily through the database, a vital skill needed to process applications and
conduct records checks. Staff also believed that inadequate training
hampered their ability to learn about the NFA and the process for
registering and transferring NFA weapons. Incomplete and inaccurate
training could lead to errors in the NFRTR and in decisions based on the
NFRTR. For example, supervisors’ inadequate training led to variations in


U.S. Department of Justice                                                v
Office of the Inspector General
Evaluation and Inspections Division
their direction and inconsistent decisions about approving or disapproving
NFA weapons registration and transfer applications. Since taking over in
2005, the NFA Branch Chief has provided some training opportunities to
staff, including sessions on NFA weapons and NFA-related legal issues, as
well as access to NFA weapons industry conferences. However, staff stated
that training must be more comprehensive and frequent.

       Further, the NFA Branch does not have systematic methods for
managers to communicate with staff to keep them informed of NFA and
NFRTR issues. Most staff members told us they were comfortable asking
questions of Section Chiefs and the NFA Branch Chief but needed more
structured and regular forms of communication to stay current on changes
in NFA weapons regulations. Staff members said that they sporadically
received e-mails and memorandums from managers on administrative,
procedural, or NFA issues. However, there were no regular staff meetings or
established communication methods, even though staff told us that they
would welcome such regular interaction. Without coordinated and regular
communication, Branch managers could not update the staff on the
complex regulations and issues surrounding NFA weapons or ensure that
direction was given in a standard manner. In March 2007, after the
fieldwork for our review had concluded, the NFA Branch Section Chiefs
began conducting monthly staff meetings to improve the flow of information
within the Branch.

The NFA Branch is not promptly correcting a backlog of NFRTR errors
identified during inspections of federal firearms licensees.

      The NFA Branch is not promptly correcting discrepancies between the
NFRTR records and licensee inventories. The NFA Branch is responsible for
addressing the errors and discrepancies, identified by IOIs during
compliance inspections of federal firearms licensees. 8 However, there are no
established guidelines for the Branch on reconciling the errors within a
certain amount of time, and as of March 2007 the Branch had a backlog of
61 discrepancy reports to reconcile. This means that some corrections to
records do not get made before a licensee receives their next inspection,
which could be 3 years later. At the time of our review, the NFA Branch
Chief had assigned one staff member to work part-time on the backlog.

      We found that discrepancies between the NFRTR and inventories of
federal firearms licensees were frustrating and time consuming for IOIs as

       8 Compliance inspections examine whether a federal firearms licensee is complying
with federal firearms laws. During inspections, licensees must account for all weapons that
they have bought or sold, and verify they have reported multiple sales and firearms thefts
to ATF.

U.S. Department of Justice                                                           vi
Office of the Inspector General
Evaluation and Inspections Division
well as disconcerting for licensees. While most discrepancies could be
resolved quickly during inspections if the licensees could produce the
transfer and registration paperwork, about one of four discrepancies could
not be resolved without research by NFA Branch staff. According to the NFA
Branch Chief, the discrepancies made the NFA Branch look incompetent
and could be disruptive to licensees’ operations because of the time
licensees must devote to resolving discrepancies between their inventories
and the NFRTR.

      In our survey of IOIs, 46.5 percent (139 of 299) reported that they
found a discrepancy between the NFRTR inventory report and a licensee’s
inventory “always” or “most of the time.” Further, 44.4 percent of
respondents (133 of 299) said that the discrepancy was due to an error in
the NFRTR “always” or “most of the time.” In comparison, no respondents
reported that the error was “always” on the part of the licensee, and only
2 percent (6 of 299) reported that the error was on the part of the licensee
“most of the time.”

       IOIs stated that many licensees were worried about any identified
discrepancy because ATF could refer licensees to ATF Special Agents for
violations of the NFA and GCA discovered during compliance inspections.
However, we found that errors in the NFRTR have not resulted in
inappropriate administrative or criminal sanctions against individual
weapons owners or licensees. IOIs told us they only refer cases involving
discrepancies to ATF Special Agents for investigation when the discrepancy
cannot be resolved or when the IOI suspects there is a deliberate violation of
the NFA. We found that IOIs referred cases infrequently to Special Agents
and between 2000 and 2006 only 15 federal firearms licensees were charged
criminally for violating only the NFA. While IOIs can note NFA violations in
the report of the compliance inspection, they cannot issue administrative
sanctions for NFA violations alone. In 2006, ATF conducted 7,292
compliance inspections and issued 12,176 violations. Of that total number,
less than 1 percent (53) was for NFA violations. 9 From our interviews, data
analyses, and survey, we identified no instances in which an NFRTR error
resulted in inappropriate seizure of an NFA weapon or in inappropriate
criminal consequences to an individual weapons owner or federal firearms
licensee. We asked the NFATCA for examples of its members’ weapons
being inappropriately seized because of inaccuracies in the NFRTR, and we
received none in response.


       9  Violations of the GCA and the Firearms Owner’s Protection Act are those most
frequently cited during compliance inspections of federal firearms licensees. These
violations could include not reporting multiple sales to one individual, selling a firearm to a
minor, or not properly filling out an ATF Form 4473 (a firearms transaction record).

U.S. Department of Justice                                                               vii
Office of the Inspector General
Evaluation and Inspections Division
The NFRTR database has technical problems, and the NFA Branch
considers the programming to be flawed.

        The NFRTR’s programming has not been modified since 1997 when
ATF converted the original 1983 electronic database to an Oracle platform.
Several NFA Branch personnel described the NFRTR programming as
obsolete, or becoming obsolete, and identified flaws that make it difficult to
work with the database and to ensure that decisions based on NFRTR
reports and queries are correct. The flaws include: (1) older NFRTR records
with empty data fields can improperly exclude the records from search
results, (2) the NFRTR can erroneously generate two separate records for
one weapon, (3) the system lacks controls to prevent inconsistent data
entry, (4) the system lists incorrect owners of NFA weapons on queries and
reports, and (5) when multiple weapons are registered on a single form, a
change entered in the NFRTR for one weapon incorrectly applies the change
to all the weapons listed on that form.

      For the last 5 years, ATF would not make system enhancements to
the NFRTR because ATF planned to integrate many of the databases of its
National Tracing Center, Firearms and Explosives Imports Branch, and NFA
Branch. The goal of the Firearms Integrated Technology (FIT) project was to
allow access to information in the various databases through a single entry
point. Content of the individual databases would not be affected. ATF
received budget allocations in fiscal year (FY) 2001 and FY 2002 for FIT;
however, ATF reallocated the funding to another priority mission, which
exhausted the funding by 2004. Any continued work on FIT was dependent
on congressionally earmarked funds (which were exhausted during 2005)
and the acquisition of specific funds to perform specific tasks. ATF’s
subsequent funding requests for FIT have not been successful. ATF
requested additional funds for NFRTR improvements for FY 2008, but
funding was not included in the President’s budget. To address some
technical issues, in 2006 the NFA Branch Chief created a permanent
Information Technology Specialist position to determine the full capability of
the NFRTR database, develop additional queries and reports, and determine
the best approach to correcting errors in NFRTR records.


ATF has not completed two vital projects to improve the NFRTR, which
limits the NFA Branch’s ability to correct or prevent discrepancies.

       ATF has initiated, but has not completed due to budget constraints,
two projects that would improve the accuracy of the NFRTR and increase
the efficiency of the NFA Branch. The first project involves scanning (or
imaging) all NFA weapons transfer and registration applications since 1934


U.S. Department of Justice                                              viii
Office of the Inspector General
Evaluation and Inspections Division
into digital files in a database and establishing an indexing system to search
this new database. The second project, titled e-Forms, is creating an
electronic filing system for individual weapons owners and federal firearms
licensees to submit NFA weapons applications online.

      We found that ATF has 1-year’s backlog worth of NFA weapons
applications to image and index. In 2005, the NFA Branch had four
contractors working on imaging and indexing, and the backlog was only 6
months. In June 2006, budget cuts forced ATF to reduce the number of
contractors to two, which has increased the backlog significantly.
Reduction of this backlog is important because NFA Branch staff use the
imaging database to quickly and easily locate specific forms, perform a
complete search of a weapon’s ownership history, and verify registration of
NFA weapons.

      ATF also has not completed the e-Forms project it initiated in 2004.
The capability for individual weapons owners and federal firearms licensees
to submit applications online would reduce data entry errors by NFA
Branch personnel, detect errors on applicant’s registration and transfer
forms before entry into the NFRTR, and allow importers and manufacturers
to check the status of forms they submitted electronically for processing.
ATF expects the e-Forms system to free up limited staff resources in the
NFA Branch by reducing the number of paper forms that must be keyed into
the NFRTR.

      In FY 2002, ATF received funding for the e-Forms project and
developed the requirements document for an electronic filing system and a
prototype of the system. In February 2006, the ATF demonstrated the
prototype at a firearms industry trade show and received enthusiastic
responses from industry members. However, because of budget constraints,
ATF suspended the project before the system was finalized and
implemented. ATF estimated that it needed $13,964,870 to complete the
e-Forms system and to operate it for the first 2 years and that $200,000
would be needed to operate it each year thereafter.




U.S. Department of Justice                                               ix
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSIONS AND RECOMMENDATIONS

      We concluded that the NFA Branch has made significant
improvements to its processing of NFA weapons applications and its
responsiveness to inquiries from the public and ATF personnel. However,
management infrastructure and information technology issues persist that
contribute to errors in the NFRTR and affect its reliability as a regulatory
tool. NFA Branch staff do not process applications or enter data into the
NFRTR in a consistent manner, leading to errors in records and inconsistent
decisions on NFA weapons applications. The NFA Branch also has a
backlog of discrepancies in its records that it is not able to resolve in a
timely manner due to a shortage in staff resources. Further, the NFRTR
database has software programming flaws that cause errors in records and
reports.

       Despite the concerns of both the citizens who wrote the letters to
Congress that prompted our review and federal firearms dealers that errors
in the NFRTR leave them vulnerable to unwarranted sanctions and criminal
charges, we concluded, based on ATF documents and interviews with ATF
personnel and NFA weapons industry representatives, that errors in NFRTR
records have not resulted in inappropriate criminal charges against
individuals or licensees. ATF does not have the authority to issue sanctions
to federal firearms licensees for violations of only the NFA found during
inspections.

      To help improve the processing of NFA applications and reduce errors
in the NFRTR, we recommend that ATF:

       1. Improve the ATF website by making it easier to find NFA
          information, such as frequently asked questions, application forms
          and instructions, NFA Branch contact information, and the NFA
          handbook.

       2. Develop and disseminate to all NFA Branch staff a comprehensive
          standard operating procedures manual that includes all NFA
          weapons application processes, NFRTR processes, and data entry
          codes and abbreviations.

       3. Develop uniform and structured training for staff members that
          includes standard operating procedures and hands-on experience
          with the NFRTR. Ensure that all NFA Branch staff members
          attend the training and that the staff trainers are themselves
          properly trained. Provide training for the Section Chiefs on
          supervisory techniques.


U.S. Department of Justice                                              x
Office of the Inspector General
Evaluation and Inspections Division
       4. Establish regular and recurring methods of communication to NFA
          Branch staff.

       5. Resolve discrepancies between the NFRTR and inventories of
          federal firearms licensees in a timely manner.

       6. Develop and implement an action plan to fix technical
          programming flaws and errors in the NFRTR.

       7. Develop and implement an action plan for eliminating the backlog
          of imaging and indexing forms for the imaging database.

       8. Develop and implement an action plan for completing the e-Forms
          project.




U.S. Department of Justice                                             xi
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS


LIST OF ACRONYMS

BACKGROUND ......................................................................................1

PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW .........8

RESULTS OF THE REVIEW.................................................................11

        The NFA Branch has improved the timeliness of
        processing NFA applications and responding to customer
        inquiries ....................................................................................11

                The NFA Branch has decreased the time it takes to
                process applications ..........................................................11

                The NFA Branch has improved the process for
                responding to customer inquiries.......................................13

                The NFA Branch is working with the NFA industry ............15

                ATF field staff reported satisfaction with NFA Branch
                customer service................................................................16

        NFA Branch staff do not process NFA weapons applications
        or enter data into the NFRTR in a consistent manner ............18

                The NFA Branch does not have a comprehensive
                standard operating procedures manual..............................18

                Training is inadequate, especially for new employees .........21

                Managers’ communication with staff is sporadic ................23

                NFA Branch actions to address identified needs.................23




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
       The NFA Branch is not promptly correcting a backlog of
       errors in NFRTR records identified during inspections of
       federal firearms licensees .........................................................25

              Discrepancies between the NFRTR and licensees’
              inventories delay completion of inspections and
              erode confidence in the NFRTR ..........................................26

                      Discrepancies are frustrating and time
                      consuming for IOIs ....................................................27

                      Discrepancies are disconcerting for licensees .............29

              Errors or discrepancies in the NFRTR have not resulted
              in inappropriate criminal prosecutions to NFA weapons
              owners and licensees .........................................................30

              NFA Branch action to address backlog of discrepancy
              reports ..............................................................................32

       The NFRTR database has technical problems and
       the NFA Branch considers the programming to be flawed.......32

              Older NFRTR records have empty data fields......................34

              Some NFA weapons have multiple records in the NFRTR....35

              The NFRTR does not have system controls over data
              entry, so consistency is not ensured ..................................35

              The NFRTR does not always indicate the correct
              owner of the weapon on queries and reports ......................36

              When multiple NFA weapons are registered on the
              same application form, modifications to one weapon’s
              record affect all of the weapons registered on that form......37

              NFA Branch action to address technical issues ..................38




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
       ATF has not completed two vital projects to improve
       the NFRTR, which limits the NFA Branch’s capability
       to correct or prevent discrepancies .........................................39

              ATF has a backlog of NFA weapons applications
              to be imaged and indexed ..................................................39

              ATF has not completed the e-Forms project .......................40

CONCLUSIONS AND RECOMMENDATIONS ........................................42

APPENDIX I:       NFA APPLICATION FORMS AND TRANSACTION
                  PROCESSES ................................................................45

APPENDIX II: OIG SURVEY QUESTIONS TO INDUSTRY
             OPERATIONS INVESTIGATORS .................................48

APPENDIX III: THE BUREAU OF ALCOHOL, TOBACCO,
              FIRARMS AND EXPLOSIVES’ RESPONSE .................51

APPENDIX IV: OIG’S ANALYIS OF THE BUREAU OF ALCOHOL,
             TOBACCO, FIREARMS AND EXPLOSIVES’
             RESPONSE...................................................................56




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      ACRONYMS



ATF                 Bureau of Alcohol, Tobacco, Firearms and Explosives
CSR                 Customer Service Representative
FIT                 Firearms Integrated Technology
FTB                 Firearms Technology Branch
FY                  Fiscal year
GCA                 Gun Control Act
IOI                 Industry Operations Investigator
IT                  Information technology
NCIC                National Crime Information Center
NFA                 National Firearms Act
NFATCA              National Firearms Act Trade and Collectors Association
NFRTR               National Firearms Registration and Transfer Record
NRA                 National Rifle Association
OIG                 Office of the Inspector General
SHOT                Shooting, Hunting, and Outdoor Trade
SOT                 Special Occupational Tax




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                       BACKGROUND


       On June 26, 1934, Congress passed the National Firearms Act (NFA),
since amended, to limit the availability of machine guns, short-barreled
shotguns, short-barreled rifles, sound suppressors (silencers), and other
similar weapons that were often used by criminals during the Prohibition
Era. 10 The NFA imposed a tax on the manufacture, import, and distribution
of NFA weapons and required a registry of “all NFA firearms in the
United States that were not under the control of the United States
[government].” 11 The Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF) collects the taxes and maintains NFA weapon registration records in a
central registry. This central registry, called the National Firearms
Registration and Transfer Record (NFRTR), consists of all registration
documents, attachments to those documents, and an electronic database
that includes information from many of the documents and that enables
computerized searches of the registry. 12

       Congress expanded the scope of the NFA through the Gun Control Act
(GCA) of 1968 to include destructive devices (e.g., explosive and incendiary
bombs, flash bang grenades, and weapons with a bore of greater than one-
half inch in diameter), machine gun frames or receivers, and conversion kits
for machine guns. 13 The GCA restricts registrations of NFA weapons to only
makers, manufacturers, and importers. 14 Private citizens or individuals
who meet eligibility under the NFA are allowed to purchase, sell, possess,
and transfer only previously registered NFA weapons. Further, the GCA

       10   26 U.S.C. § 5845 (1986).

       11 26 U.S.C. § 5845. NFA applicants must pay a $200 tax each time they make or
transfer an NFA weapon. Further, manufacturers, importers, and dealers must pay a
Special Occupational Tax (SOT) to do business in NFA weapons and are licensed as Special
Occupational Taxpayers. Manufacturers and importers are taxed $1,000 each year and
dealers are taxed $500.

       12   The NFRTR was automated in 1983.

        13 The GCA also defined the term “firearm” to exclude antique firearms or any

devices (excluding machine guns and destructive devices) that could be classified as
collectors’ items. 26 U.S.C. § 5845. Flash bang grenades are non-lethal, pyrotechnic
distraction devices used by law enforcement agencies, the military, and movie and
television productions. Receivers can convert a semi-automatic weapon into an automatic
weapon firing multiple shots with on function of the trigger.

       14  NFA weapons makers are unlicensed individuals who usually make one weapon
at a time for individual use. NFA weapons manufacturers are licensed to manufacture
weapons for sale and pay an annual Special Occupational Tax.

U.S. Department of Justice                                                         1
Office of the Inspector General
Evaluation and Inspections Division
called for a 30-day amnesty period ending December 1, 1968, where anyone
possessing an NFA weapon could register the weapon without consequence.
However, any NFA weapon not registered during the amnesty is considered
contraband, cannot be registered, and must be forfeited or voluntarily
surrendered to ATF. On May 19, 1986, Congress passed the Firearms
Owners’ Protection Act to prohibit possession of machine guns that were not
legally possessed prior to its enactment. Thus, the Firearms Owners’
Protection Act allowed newly manufactured machine guns to be available
only to the U.S. government (such as the U.S. military) and law enforcement
entities after May 19, 1986.

       NFA weapons must be registered with the NFRTR, and whenever
ownership is transferred (through sale, rental, gift, or bequest) the transfer
must be approved in advance by ATF and then updated in the registry. A
registrant is required to retain the approved NFA weapons application form
as proof of a weapon’s registration and make it available to ATF upon
request. 15 Manufacturers, importers, and makers of NFA weapons also are
required to register each newly made, manufactured, or imported weapon.
Law enforcement agencies are allowed to register weapons that have been
seized or voluntarily surrendered to the U.S. government.

       As of November 2006, the NFRTR contained registrations for
1,906,786 weapons. The total number of weapons included 1,186,138
destructive devices, 391,532 machine guns, 150,364 silencers, 95,699 short
barreled shotguns, 33,518 short barreled rifles, 48,443 weapons categorized
as “any other weapons,” and 1,082 “unknown” devices or weapons not
classified in the other categories. 16 Figure 1 illustrates the breakdown of
the weapons in the NFRTR.




       15   26 U.S.C. § 5841(e).

        16 Of the 1,186,138 destructive devices in the NFRTR, 77.4 percent (918,517) are

flash bang grenades. The category “unknown” includes older weapons or devices registered
with ATF before the NFRTR was automated that are not clearly identified or do not fit in any
other category of weapon. According to 26 U.S.C. § 5845 (1986), “any other weapon” means
“any weapon or device capable of being concealed on the person from which a shot can be
discharged through the energy of an explosive, a pistol or revolver having a barrel with a
smooth bore designed or redesigned to fire a fixed shotgun shell, weapons with combination
shotgun and rifle barrels 12 inches or more, less than 18 inches in length, from which only
a single discharge can be made from either barrel without manual reloading, and shall
include any such weapon which may be readily restored to fire. Such term shall not
include a pistol or a revolver having a rifled bore, or rifled bores, or weapons designed,
made, or intended to be fired from the shoulder and not capable of firing fixed
ammunition.”

U.S. Department of Justice                                                            2
Office of the Inspector General
Evaluation and Inspections Division
            Figure 1: Weapons in the NFRTR as of November 2006


                         Short-barreled     Any Other
                          Rifles, 1.8%     Weapon, 2.5%
                                                          Unknown and
               Short-barreled                              N/A, 0.1%
                Shotguns,
                   5.0%

             Silencers, 7.9%




               Machine Guns,
                  20.5%
                                                                  Destructive
                                                                 Devices, 62.2%




       Source: ATF, NFRTR data

       Each record in the NFRTR contains the make, model, and serial
number of the weapon, the date of its registration, and the name and
address of the person entitled to possess the weapon. Each record also
includes the transaction history for the weapon. For weapons registered
prior to 1983, the NFRTR contains record entries of the three most recent
transactions. 17 After 1983, the records contain all transactions. Another
database linked to the NFRTR database contains electronic images of the
related application forms for both pre- and post-1983 registered weapons.

      Possessing an unregistered NFA weapon or one that is registered to
someone else is punishable by a $250,000 fine and 10 years
imprisonment. 18 The NFA weapon is subject to forfeiture, and if convicted


         17 When the NFRTR was automated in 1983, the NFA Branch chose to focus on

entering all transaction information for newly registered weapons, so NFA Branch staff
entered only the three most recent records for each NFA weapon registered prior to 1983.
A full transaction history of a pre-1983 weapon is available in the imaging database, which
contains scanned copies of original application forms. All transactions of an NFA weapon
registered after 1983 are entered into the NFRTR.

       18   26 U.S.C. § 5871, 18 U.S.C. § 3571.



U.S. Department of Justice                                                            3
Office of the Inspector General
Evaluation and Inspections Division
of a criminal violation of the NFA the possessor will be prohibited from
receiving or possessing firearms. 19

      In 2006, ATF seized 3,030 NFA weapons, including 1,280 machine
guns, 550 sawed-off shotguns and rifles, 571 silencers, 415 destructive
devices, and 214 devices categorized as “any other weapons.” These totals
included unregistered NFA weapons seized during criminal investigations as
well as registered and unregistered NFA weapons seized as a result of
compliance inspections of federal firearms licensees.

ATF’s NFA Branch

       The NFA Branch, under ATF’s Firearms and Explosives Services
Division, Office of Enforcement Programs and Services, maintains the
NFRTR and processes applications, requests for information, and notices
associated with the manufacture, registration, transfer, and transportation
of NFA weapons. In 2006, the NFA Branch processed and entered 402,151
NFA weapons applications forms into the NFRTR. The NFA Branch assists
registrants of NFA weapons and members of the firearms industry in
complying with federal law and regulations regarding the possession,
transport, and transfer of NFA weapons; reports of loss or theft of an NFA
weapon or registration document; and other issues regarding changes
concerning NFA weapons registration. Additionally, the NFA Branch
conducts queries of the NFRTR to support compliance inspections and
criminal investigations.

NFA Branch Staffing and Duties

       In 2005, NFA Branch operations relocated to Martinsburg,
West Virginia, from Washington, D.C., leaving only the Program Manager at
ATF headquarters. As of March 2007, the NFA Branch had a staff of 20 ATF
personnel and 12 contractors. The NFA Branch is authorized to have a
complement of 16 Examiners, 8 Specialists, 1 Special Occupational Tax
(SOT) Specialist, and 1 Information Technology (IT) Specialist. As of March
2007, it had only 10 Examiners, 4 Specialists, 1 SOT Specialist, and 1 IT
Specialist. Also, 1 of the 10 Examiners was working in ATF’s Explosives
Licensing Center due to a staffing shortage in that organization, and 1 of the
4 Specialists was detailed to ATF headquarters. Table 1 shows the staffing
levels and summarizes the duties of each position.




       19   26 U.S.C. § 5872, 18 U.S.C. § 922(g)(1).



U.S. Department of Justice                                                 4
Office of the Inspector General
Evaluation and Inspections Division
       Table 1: NFA Branch Staffing Levels as of March 2007

                       Number of      Number of
      Position         Employees      Employees                  Duties
                        on Board      Authorized
   ATF Personnel
                                                   Supervises the NFA Branch. Decides
Branch Chief                1             1
                                                   policy and program changes.
                                                   Supervises Legal Instrument
Section Chief               2             2
                                                   Examiners.
                                                   Advises the Branch Chief and other
                                                   officials on policy decisions, NFA
Program Manager
                                          1        Branch program direction, and
(Washington, D.C.)          1
                                                   proposed changes to the NFRTR
                                                   system.
                                                   Performs records checks and
                                                   produces inventory reports for ATF
Specialist                  4             8        Special Agents and IOIs. (One
                                                   Specialist is detailed to ATF
                                                   headquarters.)
Special Occupational                               Reviews and processes SOT
                            1             1
Tax (SOT) Specialist                               applications and renewals.
                                                   Processes NFA applications. (One
Legal Instrument                                   Examiner works in ATF’s Explosives
                           10            16
Examiner                                           Licensing Center due to a staffing
                                                   shortage.)
                                                   Develops additional queries of the
                                                   NFRTR, develops methods to fix
IT Specialist               1             1
                                                   errors in the NFRTR, and tracks
                                                   Branch productivity.
   Contractors
                                                   Enters application data from paper
Data Entry Clerk            7            N/A
                                                   forms into NFRTR.
Imaging Contractor                                 Scans and indexes NFRTR
(National Tracing           2            N/A       documents into an electronic
Center)                                            imaging database.
                                                   Receives NFA-related phone calls and
Customer Service            3
                                         N/A       answers questions from the NFA
Representative
                                                   community and ATF field offices.
Source: ATF




U.S. Department of Justice                                                         5
Office of the Inspector General
Evaluation and Inspections Division
     Figure 2 shows the structure of the NFA Branch as of March 2007.

                  Figure 2: NFA Branch Organizational Chart




Note: ATF’s National Tracing Center – which traces the history of recovered crime guns for
federal, state, local, and international enforcement agencies – manages an imaging services
contract for all ATF branches.


NFA Weapon Registration Process

       To register a new NFA weapon or transfer a registered NFA weapon,
applicants must complete an ATF application form and submit it to the NFA
Branch for review and approval. Only licensed manufacturers, licensed
importers, or makers of NFA weapons may register an NFA weapon. Private
citizens can apply for a transfer of a previously registered NFA weapon if the
transfer is by sale, gift, or bequest. The NFA Branch staff receives NFA
weapons application forms, checks them for completeness, and enters the
transaction information into the NFRTR. NFA Branch Examiners check the
information in the database against the paper applications for accuracy and
verify the applicants’ compliance with state and federal regulations. If an
application is incomplete or incorrect, the Examiner sends a correction
letter to the applicant and allows 30 days for the applicant to submit
additional information. If the application is approved, the Examiner retains
a copy for the NFA Branch records and sends the original application back


U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
to the applicant, who is required to maintain it as proof of registration. The
copied forms are “imaged” into an electronic database by contractors and
then stored in the NFA Branch archives. See Appendix I for a full list of NFA
application forms and transaction processes.

NFA Weapons Records Checks and Inventory Report Requests

       NFA Branch Specialists respond to requests for records checks and
inventory reports from ATF Special Agents and Industry Operations
Investigators (IOI). 20 IOIs request NFA weapons inventory reports as part of
compliance inspections they conduct of federal firearms licensees. Special
Agents submit request forms for records checks of NFA weapons owners or
specific NFA weapons related to their investigations. An NFA Branch
Specialist searches the NFRTR database using multiple queries to find the
record for the individual or weapon and returns a search report to the
Agent.

Funding for NFRTR Improvements

       In fiscal year (FY) 2001, Congress appropriated $2 million for
management and technical improvements at ATF’s NFA Branch, Firearms
and Explosives Imports Branch, and National Licensing Center. 21 ATF used
this funding for system development activities to consolidate and
standardize separate information technology (IT) systems, streamline IT
processes, and improve information access and usefulness for both ATF and
the public. 22 In FY 2002, Congress provided another $2 million to ATF for
the three branches and also provided $500,000 specifically to improve the
NFRTR. To reduce processing time for NFRTR transactions, ATF used the
funding to support imaging and indexing records within the NFRTR and
linking the records to a retrieval system. 23 ATF also used the funds to
develop the requirements document for an electronic filing system for three
NFA forms and the prototype system and to modify the prototype based on
feedback received from the NFA weapons industry.

       20 IOIs conduct inspections of federal firearms licensees for compliance with federal

firearms laws and regulations.

        21 The Firearms and Explosives Imports Branch reviews and processes applications

for the importation of firearms, ammunition, and explosives into the United States. The
National Licensing Center, now called the Federal Firearms Licensing Center, reviews and
processes applications for federal firearms licenses. The center also maintains a searchable
federal firearms licensee database.

       22   House Report 107-152.

       23   House Report 107-152.

U.S. Department of Justice                                                             7
Office of the Inspector General
Evaluation and Inspections Division
               PURPOSE, SCOPE, AND METHODOLOGY
                      OF THE OIG REVIEW


Purpose

       The Office of the Inspector General (OIG) conducted this review to
examine ATF’s effectiveness in maintaining the records of registrations and
transfers of NFA weapons in the NFRTR. Members of Congress and the
Inspector General had received letters from citizens expressing concern
about the accuracy and completeness of the NFRTR and the administration
of the NFA Branch. Generally, the concerns were that: (1) errors in NFRTR
records leave citizens vulnerable to unjust convictions on NFA-related
charges; (2) interpretation of regulations and paperwork by NFA Branch
employees expose citizens to, or resulted in, unjust enforcement of the NFA;
and (3) NFA Branch staff made errors and mistakes while processing
applications and failed to update the NFRTR to reflect approved transfers.

Scope and Methodology

      The review focused on the operations of the NFA Branch, which is
responsible for maintaining the NFRTR and processing NFA weapons
applications. Our fieldwork, conducted from September 2006 through
January 2007, included in-person and telephone interviews, a site visit to
the NFA Branch in West Virginia, data analyses, document reviews, a
survey, and a demonstration of the NFRTR database.

Interviews

      We interviewed 58 ATF officials and staff, 10 contractors, 2 board
members of the National Firearms Act Trade and Collectors Association
(NFATCA), a representative from the National Rifle Association (NRA), and a
federal firearms licensee. Table 2 lists the officials and staff interviewed.




U.S. Department of Justice                                               8
Office of the Inspector General
Evaluation and Inspections Division
                          Table 2: Officials Interviewed

             Site                            Official(s) Interviewed
 ATF Headquarters,             Assistant Director, Office of Enforcement Programs
 Washington, D.C.              and Services
                               Deputy Assistant Director, Office of Enforcement
                               Programs and Services
                               Associate Chief Counsel, Firearms, Explosives, and
                               Arson Division
                               NFA Branch Program Manager
                               Former ATF Specialist, NFA Branch
                               ATF Specialist, NFA Branch, detailed to HQ
                               Former Legal Instrument Examiner, NFA Branch
                               Deputy Chief, Field Management Staff, Field
                               Operations
 ATF, Martinsburg, WV          Deputy Chief, Firearms and Explosives Division
                               NFA Branch Chief
                               Chief, National Tracing Center Division
                               Deputy Chief, National Tracing Center Division
                               Firearms and Explosives Imports Branch Chief
                               Section Chief (2)
                               Specialist (3)
                               Legal Instrument Examiner (6)
                               Data Entry Clerk, Contractor (3)
                               Customer Service Representative, Contractor (3)
                               Contracting Officer’s Technical Representative
                               Document Imaging Contractor
                               Project Manager, Contractor (3)
 ATF Field Offices             Special Agent (27)
                               Industry Operations Investigator (10)
 Industry Representatives      Board Member, National Firearms Act Trade and
                               Collectors Association (2)
                               Representative, National Rifle Association (NRA)
                               Federal Firearms Licensee

Data Analyses and Document Reviews

       We reviewed and analyzed data ATF provided that included the
number of applications processed, number of record searches, number of
inventory reports, processing and response times, number of disapproved
applications, NFA weapons prosecutions, and NFA weapons seizures and
forfeitures. The data came from the time period of either fiscal or calendar
years 1995 – 2006.




U.S. Department of Justice                                                     9
Office of the Inspector General
Evaluation and Inspections Division
       We reviewed ATF policies, budget documents, manuals, reports,
memorandums, staff performance plans, and position descriptions.
Additionally, we reviewed legislation, congressional testimony, news articles,
citizens’ concerns, and other reports related to the NFA, NFA weapons, and
the NFRTR.

Survey

       To obtain information about the effects of NFRTR errors on
compliance inspections of federal firearms licensees and ATF field office
work, we conducted an internet-based survey of all ATF Industry Operations
Investigators (IOI). We pretested the survey with 10 users and made
changes to the questions based on the pretest results. In December 2006,
we sent e-mail invitations to 621 IOIs (the entire IOI population) with
passwords, instructions, and a link to the survey. Three-hundred and
fifteen e-mail invitations were returned as “undeliverable.” After reviewing
the original list of IOI e-mails, we determined there were various errors with
over half of the e-mail addresses ATF provided. We made corrections where
possible and re-sent invitations and reminders to a total of 609 IOIs. Within
the 3 weeks that online access was available, 334 (55 percent) of the IOIs
completed the survey, and 299 of those 334 had had experience inspecting
federal firearms licensees with NFA weapons. See Appendix II for a copy of
the survey questions.

Demonstration

      We observed a demonstration of the NFRTR database that included
the functions, processes, and use of the system.




U.S. Department of Justice                                              10
Office of the Inspector General
Evaluation and Inspections Division
                         RESULTS OF THE REVIEW


       The NFA Branch has significantly improved the timeliness
       of processing NFA weapons applications and responding to
       customer inquiries since 2004. However, management
       and technical deficiencies still exist that cause
       inaccuracies in the NFRTR. NFA Branch staff do not
       process applications or enter data into the NFRTR in a
       consistent manner and do not promptly correct record
       discrepancies.      Additionally, the NFRTR database has
       technical problems, and its software programming is
       considered by the NFA Branch to be flawed. The lack of
       consistency in processing procedures, combined with
       database technical issues, results in errors in records,
       reports, and queries produced from the NFRTR that affect
       its reliability as a regulatory tool in inspections of federal
       firearms licensees. Notwithstanding these concerns, we
       did not find evidence that individual weapons owners or
       federal firearms licensees were criminally prosecuted
       inappropriately because of errors in the NFRTR.


The NFA Branch has improved significantly the timeliness of
processing NFA applications and responding to customer inquiries.

      We found that the NFA Branch has improved significantly its
processing time for NFA applications and its process for responding to
customer inquiries since 2004. Branch staff attribute these improvements
to placing a priority on customer service, hiring additional staff, and
working with the NFA weapons industry. Additionally, IOIs and Special
Agents in ATF field offices reported satisfaction with the level of service they
received from the NFA Branch since the Branch moved to West Virginia.

The NFA Branch has decreased the time it takes to process applications.

     Between 2004 and 2006, the average processing time for NFA
Forms 1, 3, 4, and 5 combined decreased from approximately 39 days to
approximately 10 days. 24 We focused on these four forms because



       24 Between 2004 and 2006, the average processing time for all forms decreased
from 30 days to 8 days. This number includes the NFA registration and transfer forms not
discussed in this section. See Appendix I for a list of all NFA forms.

U.S. Department of Justice                                                        11
Office of the Inspector General
Evaluation and Inspections Division
individual NFA weapons owners and dealers use them. Table 3 describes
the use of each form.

                  Table 3: NFA Weapons Applications Forms

     Form     Use                                      Applicant
              Application to Make and Register a
    Form 1                                             Individual
              Firearm

              Application for Tax-Exempt Transfer of
                                                       Dealer, Manufacturer,
    Form 3    Firearm and Registration to Special
                                                       Importer
              Occupational Taxpayer

              Application for Tax-Paid Transfer and
    Form 4                                             Individual
              Registration of a Firearm

              Application for Tax-Exempt Transfer      Dealer, Manufacturer,
    Form 5
              and Registration of a Firearm            Importer

   Source: ATF

      Average processing time for Form 1 decreased from 99 days in 2004 to
28 days in 2006, while processing time for Form 4 decreased from 81 days
to 23.6 days. Forms 1 and 4 typically take longer than other forms to
process because NFA Branch staff review additional paperwork with them,
such as fingerprint cards, and spend more time answering questions from
individual applicants who often have less experience with the application
process.

      The NFA Branch decreased the average processing time for Form 3
from 30 days in 2004 to 4 days in 2006, while decreasing average
processing time for Form 5 from 30 days to 9 days. Figure 3 shows the
improvement in processing times for Forms 1, 3, 4, and 5 since 2004.




U.S. Department of Justice                                                     12
Office of the Inspector General
Evaluation and Inspections Division
                Figure 3: Average Processing Time for NFA Weapon
                         Registration and Transfer Forms

          110
          100
           90
           80                                                      Form 1
           70                                                      Form 3
   Days




           60                                                      Form 4
           50                                                      Form 5
           40                                                      Overall Averages
           30
           20
           10
            0
                  2004     2005          2006
                                  Year
   Source: ATF, NFRTR data

      To facilitate processing of applications, the NFA Branch hired three
contract Data Entry Clerks in 2002 and, by 2005, increased the number of
clerks to seven. Data Entry Clerks enter information from paper application
forms into the NFRTR, allowing the Examiners who used to enter data to
focus on reviewing the content of applications.

The NFA Branch has improved the process for responding to customer
inquiries.

      The NFA Branch has improved its process for responding to NFA
weapons applicants’ inquiries by placing a priority on customer service and
hiring additional staff to answer the telephones. In a 2003 ATF inspection
report, NFA Branch staff identified handling telephone calls as a challenge
to providing satisfactory customer service. 25 At the time, the Acting Branch
Chief stated that the Branch had no clerks to handle customer service
issues and the large number of incoming telephone calls. Staff members
needed to spend most of their time processing forms and working with the
NFRTR, and could not devote the time needed to respond to customer
inquiries.



          Bureau of Alcohol, Tobacco, Firearms and Explosives, Inspection Report: National
          25

Firearms Act Branch (2003).

U.S. Department of Justice                                                         13
Office of the Inspector General
Evaluation and Inspections Division
        In 2005, the NFA Branch hired three contract Customer Service
Representatives (CSR) to answer telephone calls and respond to customer
inquiries. The three CSRs handle the majority of telephone calls that would
otherwise divert NFA Branch staff from processing applications or
conducting records searches. CSRs answer questions from individuals,
members of the NFA weapons industry, and ATF field staff usually within 1
workday. If they cannot answer a question themselves, they direct the call
to the appropriate NFA Branch staff member. In addition to their primary
duty of answering the telephones, CSRs help with correspondence and
filing.

      In 2006, ATF noted in another inspection report that the NFA Branch
Chief had “provided courteous service” and “displayed a positive image of
ATF to industry members.” 26 Members of the National Firearms Act Trade
and Collectors Association (NFATCA) – an association that provides
guidance and support to the NFA weapons industry and is made up of NFA
weapons dealers, manufacturers, importers, and owners – also told us that
the quality of the service of the NFA Branch had improved over the past 2
years. As part of this review, we interviewed a federal firearms licensee, a
member of the NFATCA, who stated that he was satisfied with the recent
service provided to him by the NFA Branch.

       We also reviewed various NFA industry websites and electronic
mailing lists used by NFA weapons owners and dealers and found several
positive comments about the NFA Branch and the improvement in
application processing. For example, an article in Small Arms Review
magazine about an NFA weapons-related gun show held in 2006 states:

       There is almost a universal feeling regarding the excellent
       service the community has been provided with since the move
       of the NFA Branch from Washington, D.C. to West Virginia.
       Under the direction of the NFA Branch Chief Ken Houchens,
       transfer times have been cut to a fragment of their previous
       lengths and customer service is at an all time high. 27

      Also, in the narrative response to our survey, an IOI related a
licensee’s comment that NFA Branch staff “are much more customer service
oriented and supportive to the industry, and more efficient than they have


       26 Bureau of Alcohol, Tobacco, Firearms and Explosives, Inspection Report:
Firearms and Explosives Services Division (2006).

        Jeff W. Zimba, “SAR Show 2006 Huge Success!”
       27

www.smallarmsreview.com/SARShow2007.htm (April 4, 2007).

U.S. Department of Justice                                                          14
Office of the Inspector General
Evaluation and Inspections Division
ever been in the past.” Another IOI who formerly held a federal firearms
license (FFL) stated,

          I previously held a Type 01 FFL and Class 3 occupational tax
          (dealer in NFA). I had contact with the “old” branch then and
          have had on the job contact with the “new” since working for
          ATF (August, 2005). The attitudes, professionalism, and
          procedural knowledge of the employees have improved
          dramatically. Based on my personal experience and reports I
          hear or read from people engaged in the industry as dealers or
          collectors, the turnaround times on transfers have dropped
          considerably. In my opinion, the NFA Branch has
          transformed into a very positive representative of our agency.

The NFA Branch is working with the NFA industry to communicate more
effectively with weapons owners.

       The NFA Branch has created a working relationship with the NFATCA.
To increase communication between the NFA weapons industry and the
NFA Branch, the Branch hosted a meeting in West Virginia in 2006 with
members of the NFATCA executive board to discuss NFA- and NFRTR-
related issues. The NFATCA used the NFA Branch’s comments in two
articles published in the Small Arms Review magazine providing tips on
completing applications correctly and legibly to lessen the amount of time
needed for corrections. 28

       The NFA Branch and the NFATCA also have collaborated to write a
handbook on the processing of NFA weapons applications. 29 The first draft
of the handbook was completed in December 2006. In March 2007, the ATF
Chief Counsel’s office was reviewing the draft, and ATF plans to make the
handbook publicly available on the ATF website as soon as it is finalized.
The NFATCA intends to promote the handbook as a guide for all NFA
weapons owners. NFA Branch officials said they plan to annually update
the handbook with the NFATCA’s assistance.

       However, in the course of reviewing the ATF website, we found it very
difficult to locate information relevant to NFA weapons owners.


          John Brown, “NFATCA Report: The NFA and Forms Processing,” The Small Arms
          28

Review, Vol. 10, No. 1 (October 2006), pp. 53 – 55. John Brown, “NFATCA Report:
Working with the NFA Branch,” The Small Arms Review, Vol. 10, No. 2 (November 2006),
pp. 22 - 23.

          29   Bureau of Alcohol, Tobacco, Firearms and Explosives, NFA Handbook Draft
(2006).

U.S. Department of Justice                                                           15
Office of the Inspector General
Evaluation and Inspections Division
Additionally, the site’s generally poor navigation may impede the public’s
access to the NFA handbook. Neither the site’s main page nor its firearms
page displays a link to NFA information. In addition, the site’s search
engine returns more than 240 “hits” when queried for “NFA,” and because
meta tags were not used to describe the information on the pages returned
by the search feature, it is difficult for users to tell which “hits” will take
them to the information they are seeking. Among the “hits” is a page
apparently created expressly for NFA information, but the page lacks direct
links to the application forms NFA weapons owners and licensees are
required to submit, filing instructions, or a frequently asked questions
section. A direct link to all NFA information (and eventually the NFA
handbook) from ATF’s homepage would further the NFA Branch’s efforts to
communicate more effectively with NFA weapons owners and licensees.

      The two NFATCA board members we interviewed praised the
increased communication between the NFA Branch and the NFA weapons
industry and noted significant improvement in the efficiency and
responsiveness of the NFA Branch over the past 2 years. NFATCA board
members told us that the process for registering and transferring NFA
weapons has “vastly improved.” The NFATCA also stated that the NFA
weapons industry speaks highly of the NFA Branch Examiners and
Specialists and praises their progress in minimizing the time it takes them
to process and approve an application. According to the NFATCA, the
greatest improvement in the NFA Branch is that NFA weapons owners and
federal firearms licensees can contact the NFA Branch with questions about
the application process. Additionally, the NFATCA believes that NFA Branch
Examiners are more knowledgeable about NFA weapons because applicants
have told them that the Examiners are asking more questions about model
numbers and weapon characteristics to prevent errors in the information
entered into the NFRTR.

ATF field staff reported satisfaction with NFA Branch customer service.

       Six of the 10 IOIs interviewed and 25 of the 27 Special Agents
interviewed stated that they were “satisfied” or “very satisfied” with the
information they received from the NFA Branch. Additionally, we received
positive comments about the NFA Branch from IOIs responding to our
survey. Two IOIs commented specifically:

       •   “The improvement of the NFA Branch under [the current
           Branch Chief] is nothing short of phenomenal.”




U.S. Department of Justice                                                16
Office of the Inspector General
Evaluation and Inspections Division
       •   “I have noticed that, as a whole, the NFA Branch has
           improved significantly over the past months. Many of the
           [federal firearms licensees] have noticed this as well.”

       Several other IOI survey respondents stated that the NFA Branch
provides helpful information for their work with compliance inspections,
including one who said, “I think the NFA Branch does an excellent job of
answering questions from the IOIs in the field as to which NFA forms are
required and when they are submitted.” One Special Agent told us in an
interview that he is satisfied with the work of the Branch and that it has
improved since the Branch offices were relocated to West Virginia.

       Both IOIs and Special Agents reported satisfaction with the timeliness
of the NFA Branch’s response to their requests. IOIs we interviewed stated
that the NFA Branch usually sends them an inventory report 2 to 4 days
after they submit their request and rarely takes more than 1 week to
respond to a request. One IOI stated, “The staff at the NFA Branch has
always been professional and helpful. When additional information is
required, forms are always faxed in a short period of time.” Another IOI
mentioned that he has received increasingly expedited service in the past
few years from the Branch.

      Our survey results also verified the timeliness of the NFA Branch in
providing inventory reports. We asked IOIs in our survey, “Once requested,
how many days does it take to receive the inventory report from the NFA
Branch?” The responses indicate a median number of 4 days to receive an
inventory report, and of the 293 IOIs answering this question, only 3.4
percent (10) indicated that it took over 2 weeks to receive an inventory
report.

       Although discrepancies in inventory reports are still a problem
(discussed later in the report), a few IOIs told us in the survey that they
have noticed an improvement in the accuracy of inventory reports. One IOI
told us in the OIG survey, “I feel that the NFRTR has improved greatly in the
past couple years and [federal firearms licensees] are noticing that when you
request [a record] be amended, that it is getting amended.” Another IOI
said, “In the past, there was no follow through by NFA Branch on
recommended corrections. This seems to have changed in the last year.”

      The Special Agents we interviewed, like the IOIs, were satisfied with
the length of time the NFA Branch took to respond to their requests,
describing the turnaround time as “fast” and the NFA Branch as “efficient.”
Of the 27 Special Agents we interviewed, 7 said they received the results of a
records check the same day of the request, 8 received the results within 2


U.S. Department of Justice                                              17
Office of the Inspector General
Evaluation and Inspections Division
days, 2 received the results within 3 days, 4 received results within 1 week.
Three others said they received responses to urgent requests in a few hours,
and two described responses as “prompt.” Only one Special Agent said it
took more than a week to receive results of a records check. An NFA
Branch Specialist told us that the Branch attempts to complete Special
Agent requests for records checks within 2 to 3 days and urgent requests
within 1 day.

       ATF internal reports also show that the field offices have been
satisfied with the work of the NFA Branch. In an October 2006 survey of
the 31 field offices, conducted as part of an internal review of the NFA
Branch, over 90 percent of ATF field offices reported average or higher
satisfaction with the quality of the Branch’s service. The review gave the
Branch an overall rating of “effective and efficient.” 30

NFA Branch staff do not process NFA weapons applications or enter
data into the NFRTR in a consistent manner.

       We found that NFA Branch staff do not process applications or enter
data uniformly into the NFRTR, which results in errors in NFRTR records,
reports, and queries as well as inconsistent decisions on NFA weapons
registration and transfer applications. The NFA Branch has not established
adequate standard operating procedures for working with the NFRTR and
processing NFRTR applications. Further, there is no structured training for
NFA Branch staff members when first hired. In addition, NFA Branch
managers do not have regular communication with staff members, and the
Examiners responsible for reviewing and processing application forms
receive conflicting direction from their supervisors.

The NFA Branch lacks a comprehensive standard operating procedures
manual.

       We found that the NFA Branch’s memorandums and directives on
specific processes related to the NFA and the NFRTR do not cover all day-to-
day tasks the staff perform. When the NFA Branch Chief started in his
position in 2005, he inherited an undated manual of standard operating
procedures for processing NFA forms. He told us the manual was under
revision but that he has not had enough staff to complete the revision.
None of the staff members we interviewed had ever received a copy of this
manual, although some of them had been with the NFA Branch for over 15
years. Staff members reported that they had developed their own
procedures manual by compiling various documents. For example, an NFA

       30 Bureau of Alcohol, Tobacco, Firearms and Explosives, Inspection Report:
Firearms and Explosives Services Division (2006).

U.S. Department of Justice                                                          18
Office of the Inspector General
Evaluation and Inspections Division
Branch Specialist who conducts records checks stated, “We have over the
years made up our own internal [personal] manual.” An Examiner told us,
“I had to start my own document with all the policies and procedures
because there is no [standard operating procedures] manual.”

       We reviewed the various memorandums and directives provided to
NFA Branch staff in place of a standard operating procedures manual and
determined that they were usually specific to one issue and did not cover
the basic information needed to process applications and enter data into the
NFRTR. For example, one memorandum describes how a Native American
tribal police department can use a specific application form as long as the
department has been designated a law enforcement agency by the Bureau of
Indian Affairs. 31 Another document lists the information about a pending
application that NFA Branch staff can give to those transferring and
receiving weapons. The procedures and guidance that NFA Branch staff
told us were important, but not covered by the various documents, are
outlined below.

       1. Data Entry – There are no standards for entering
          abbreviations and other data in the NFRTR. For example,
          staff members use different abbreviations to signify a
          weapon’s caliber. One NFA Branch staff member may use
          “.9” to signify a 9-millimeter caliber weapon, while another
          may use “.9mm,” and a third staff member may use “.9m.”
          NFA Branch staff told us this variation could lead to errors
          when searching or querying the NFRTR and staff may not
          know to search using other abbreviations.

       2. File Maintenance and Contact with Applicants – Each
          Examiner has a different method of keeping files and
          contacting applicants with pending applications. Application
          forms may contain errors, or a check of the National Crime
          Information Center (NCIC) may reveal a criminal charge or
          conviction under the applicant’s name. 32 There are no
          standards specifying when and how often to contact the
          applicant other than to send an initial error letter.
          Applicants are supposed to have 30 days to correct errors on


        ATF Memorandum, Processing Transfers to Native American Tribal Police
       31

Departments, Kenneth Houchens (August 21, 2006).

       32   The NCIC is a computerized database that contains information on criminal
histories, fugitives, stolen property, and missing persons. The NCIC is maintained by the
Federal Bureau of Investigation and used by federal, state, and local law enforcement
agencies.

U.S. Department of Justice                                                          19
Office of the Inspector General
Evaluation and Inspections Division
          their applications or provide evidence that a criminal charge
          was dismissed; but some Examiners allow more time or call
          the applicant before sending written communication, which
          leads to inconsistencies in the approval of applications and
          variations in customer service.

       3. Technical “Workarounds” – There is no standard direction on
          how to handle or overcome NFRTR technical flaws. For
          example, the NFRTR automatically splits a weapon’s record
          into two separate records when incorrect information or a
          change to the weapon’s specifications is entered because the
          NFRTR interprets the new information as a new weapon.
          Staff members have figured out how to work around the
          flaws by conducting searches using all variations of a name,
          address, and weapon serial number and by fixing errors in
          the NFRTR records when encountered. However, it is not
          clear if these trial-and-error methods are the standard or
          most efficient methods for handling technical issues. (We
          discuss the NFRTR’s technical flaws in more detail later in
          the report.)

       4. Responsibility for Correcting Errors – There are no standards
          that assign responsibility for fixing certain errors. For
          example, if an Examiner or Specialist finds an error in an
          NFRTR record while processing a new application for the
          transfer of a weapon, there is no clear direction as to who is
          responsible for fixing the error. Most Examiners and
          Specialists told us they fix the error if possible, but some
          may refer it to a Section Chief or to the staff member that
          worked on the record previously.

      Without written procedures, NFA Branch staff members told us that
they had to rely on other Branch staff or managers to explain what they
believed were the proper procedures for processing applications and
navigating the NFRTR database. One Examiner stated, “I wish there were
procedures, guidance, or policy in writing . . . it is all just ‘known’ and
transferred” from staff member to staff member. A Section Chief explained
that NFA Branch staff “mainly learn on the job and are expected to ask
questions of other Examiners and Section Chiefs.” Staff members said they
were not sure whether the information “passed down” represented the
acceptable standard for the NFA Branch. For example, we found that the
NFA Branch staff are not handling suspicious applications (such as one
where an applicant is attempting to transfer a weapon for which the



U.S. Department of Justice                                                 20
Office of the Inspector General
Evaluation and Inspections Division
applicant is not the current owner in the NFRTR) consistently because there
are no standard procedures outlining how to handle these applications.

      When NFA Branch staff members identify suspicious applications to
transfer or register weapons, according to Branch managers staff members
are supposed to go directly to their Section Chiefs. The Section Chief then
may refer it to the Branch Chief and the Branch Program Manager for
review. If they believe there may be criminal intent, the Branch drafts a
formal memorandum for referral to an ATF field office for investigation.
Because there are no written standard operating procedures for referrals
and the Branch does not keep track of referrals or identify suspicious
applications in the NFRTR, we did not find evidence that staff were following
management’s verbal instructions.

Training is inadequate, especially for new employees.

       The training provided to NFA Branch staff when first hired is
insufficient, ad hoc, and not uniform. All the staff we interviewed told us
that initial training was unstructured and consisted of sitting beside a more
experienced staff member and watching that member work on the NFRTR or
having the experienced staff member watch the new employee use the
NFRTR and process applications. The length of this ad hoc training ranged
from several days to several weeks. One Examiner described the training as
“sloppy” and further stated:

       Someone [a more experienced staff member] would sit with the
       new Examiners on occasion to go over how to use the NFRTR,
       but it was not for a long time and was not consistent . . . .
       Examiners just started working on the computer.

      In addition to training on the NFRTR, staff told us that they needed
more information on NFA weapons, such as the physical descriptions, to be
able to easily identify an NFA weapon, as well as specific and up-to-date
information on state laws and regulations that relate to NFA weapons
because state laws change periodically and are complicated. The NFA
Branch provides one binder with printouts of all current NFA-related state
laws and regulations. However, staff said that the legislation related to NFA
weapons is complex and not written in an easily understandable format,
and they were not comfortable interpreting it without assistance.

      Staff members told us that as a result of inadequate and
unstructured training at the beginning of their employment, they were
uncertain how to use the NFRTR, lacked skill in processing the applications
or conducting searches, were not familiar with the NFA, and did not have all


U.S. Department of Justice                                              21
Office of the Inspector General
Evaluation and Inspections Division
the information necessary to accomplish their jobs. Staff stated that it was
difficult to become familiar with the NFRTR and navigate through the
database, a vital skill needed to process applications and conduct records
checks. One Examiner told us that because of poor training not all staff
members are “on the same page” on how they approach the work and
applications may be processed incorrectly. He cited an instance in which an
Examiner needed to know whether a state allowed a certain type of NFA
weapon, and rather than researching the current state law or regulation, the
Examiner simply queried the NFRTR to view a similar transaction in that
state that had been approved in the past. State laws and regulations may
change since a previous transaction, but Examiners are not kept current on
these changes and are not trained to research the laws and regulations
appropriately instead of copying old transactions.

       We also found that inadequate training could affect the direction given
to NFA Branch staff as well as information provided to the ATF field offices.
For example, the lack of training on NFA-related state laws and regulations
affected the guidance from Section Chiefs to Examiners. Further, an IOI
survey respondent commented, “We can call [the] NFA [Branch] and speak
to different people [on the same issue] and get different answers. This has
happened more than a few times in the past.”

       The Section Chiefs are usually selected from the Examiner pool and
do not receive additional training, either supervisory or NFA-related. They
receive the same ad hoc training as other NFA Branch staff, and the quality
of the information received during the training is not standard. Two of the
Examiners we interviewed told us that they have received different direction
from the same Section Chief on two identical cases, and they have received
different direction on identical issues from different Section Chiefs. For
example, an Examiner explained that she had two different applicants with
NCIC “hits” (meaning that the applicants had criminal charges against
them). Both applicants had the same criminal charge. However, the
Section Chief advised her to approve one application to register or transfer a
weapon but to disapprove the other application. The Examiner was not
certain if there were variables that affected the decision to approve or
disapprove an application, and the Section Chief did not communicate the
reasoning for each decision. The Examiner further stated that she had
received conflicting direction on other occasions, especially with decisions
based on interpretation of NFA-related state laws.

       The second Examiner described the incidences of receiving conflicting
direction from his Section Chief as directly related to the complex legislation
and regulations in each state on NFA weapons. He told us, “A lot of the
circumstances where different direction was given revolved around state


U.S. Department of Justice                                               22
Office of the Inspector General
Evaluation and Inspections Division
regulations. A particular type of weapon may be legal one time [in that
state] and then later you find out they told someone else that it wasn’t.”

      Because new staff members receive different training from different
people who also were not formally trained, the quality of the training in
terms of topics covered and accuracy of information is insufficient.
Incomplete and inaccurate training leads to errors in the NFRTR and in
decisions based on the NFRTR. Moreover, variations in direction based on
inadequate training could produce inconsistent approvals or disapprovals of
NFA weapons applications.

Managers’ communication with staff is sporadic.

      The NFA Branch managers do not communicate regularly with staff.
Most staff members told us they are comfortable asking questions of Section
Chiefs and the NFA Branch Chief but need more structured and regular
forms of communication to stay current on changes that affect the NFA
Branch.

       All of the NFA Branch staff said that they sporadically receive e-mails
and memorandums from management on administrative, procedural, or
NFA issues. An Examiner told us, “Sometimes the Section Chiefs will e-mail
us with information about interpretation of state regulations, but
communication is not [regular].” Another NFA Branch Specialist told us
that approximately 10 years ago, the Branch held staff meetings to discuss
specific issues, but no longer does so. When a new Examiner asked her
Section Chief if they could have staff meetings, the Section Chief responded,
“I don’t do meetings.” Without coordinated and regular communication,
Branch managers cannot update staff on the complex regulations and
issues surrounding NFA weapons and ensure that direction is given in a
standard manner. Moreover, when Examiners encounter a technical
problem in an NFRTR record and ask Section Chiefs for assistance, the
Section Chiefs will often fix the record themselves and fail to communicate
with or teach the Examiner how to solve the problem in the future.

NFA Branch Actions to Address Identified Needs

Training

      To address the needs for specific training expressed by staff, the NFA
Branch Chief provided several training opportunities. In October 2006, the
NFA Branch Chief sent all 10 Examiners to a conference in Washington,
D.C., that included information on NFA weapons and allowed the staff to
interact with the NFA weapons industry members. Six of the 10 Examiners


U.S. Department of Justice                                               23
Office of the Inspector General
Evaluation and Inspections Division
attended an additional conference in 2006, which included information and
sessions related to the NFA weapons industry. The NFA Branch Chief told
us that all Examiners are encouraged to attend these conferences and he
believed that more staff would take advantage of the conferences in 2007.

       In 2006, at the request of the NFA Branch Chief, two attorneys from
the Chief Counsel’s office (on-site in West Virginia since late 2006) held a
training session for NFA Branch staff that focused on legal issues related to
trusts and transferring ownership of NFA weapons. The two attorneys are
available continuously to answer questions from NFA Branch staff.
Additionally, one attorney offered to assist the NFA Branch in obtaining
information from each ATF field office on the most recent NFA-related
legislation and regulations for each state.

       Lastly, in 2007, in response to the need expressed by NFA Branch
staff to have greater familiarity with NFA weapons, the NFA Branch Chief
sent 10 staff to training conducted by the ATF’s Firearms Technology
Branch (FTB). The FTB, located in the same building as the NFA Branch,
maintains a variety of NFA weapons in its library.

       We believe these training sessions and opportunities are beneficial for
the NFA Branch staff and should continue. However, staff still need
structured technical training on the NFRTR database, processing
applications, and conducting searches. Further, the Section Chiefs need
training on supervisory techniques.

Communication

       In March 2007, the NFA Branch initiated the first monthly meeting for
Examiners. According to the NFA Branch Chief, the meetings are to be used
to provide updates on NFA weapons industry issues, office policies, data
entry concerns, fingerprint card scanning, training opportunities, and any
other issues. The meeting is led by the Section Chiefs, attended by all
Examiners, and includes time for an open forum where any concerns,
issues, or questions can be presented by Examiners to management. A
summary of issues and points discussed during the first meeting was
distributed to Examiners afterwards. We believe this is an important step in
improving communication in the NFA Branch, and the meetings should
continue with staff input.




U.S. Department of Justice                                              24
Office of the Inspector General
Evaluation and Inspections Division
The NFA Branch is not promptly correcting a backlog of errors in
NFRTR records identified during inspections of federal firearms
licensees.

       We found that the NFA Branch does not promptly correct errors IOIs
identify in NFRTR records. Errors in NFRTR records can be caused by NFA
Branch staff when entering data, by Examiners failing to update the NFRTR
to reflect approved NFA weapons applications and by technical flaws in the
programming of the NFRTR database. Other discrepancies can be caused
by applicants incorrectly listing information on NFA weapon applications,
and by licensees transferring or receiving NFA weapons before receiving
approval from the NFA Branch.
                                                  Use of Inventory Reports During
       The NFA Branch is                              Compliance Inspections
responsible for addressing errors
                                               As part of compliance inspections of
and discrepancies after they are               licensees that deal in NFA weapons, IOIs
identified by IOIs during compliance           compare the NFRTR inventory report to
inspections. 33 However, the NFA               the actual inventory of the licensee.
Branch does not have established               This comparison is to ensure that all
                                               NFA weapons in the inventory are
guidelines for reconciling errors and
                                               registered to the licensee and that all
discrepancies within a certain                 NFA weapons listed on the NFRTR
amount of time after receiving them            inventory report are present on the
from IOIs. As of March 2007, the               licensee’s premises. IOIs also inspect
NFA Branch had a backlog of 61                 the licensee’s NFA weapon transfer and
                                               registration paperwork for completeness
discrepancy reports to reconcile.
                                               and accuracy. IOIs note any
                                               discrepancies between the licensee’s
      In our interviews and survey,            inventory and the NFRTR report on a
IOIs reported that discrepancies               worksheet, make copies of all related
between licensees’ inventories and             NFA transfer and registration
                                               paperwork, and fax the relevant
the NFRTR record were prevalent.
                                               documents to the NFA Branch for
In our survey, 46.5 percent of IOIs            resolution of all discrepancies identified.
(139 of 299) reported that there was           IOIs often work with the licensee and the
a discrepancy between the NFRTR                NFA Branch to determine the origin of
inventory report and the licensee’s            discrepancies so that they can be
inventory “always” or “most of the             resolved as quickly as possible.
time.” Further, 44.4 percent of IOI
respondents (133 of 299) said that the discrepancy was due to an error in
the NFRTR “always” or “most of the time.” In comparison, no IOI

       33 Compliance inspections are conducted to ensure federal firearms licensees are
complying with the GCA, NFA, and other federal firearms laws. During inspections,
licensees must account for all weapons they have bought and sold, and report all multiple
sales and firearms thefts to ATF. Violations of federal firearms laws include missing or
incomplete sales records, selling a firearm to a minor, or not properly filling out an ATF
Form 4473 (a firearms transaction record).

U.S. Department of Justice                                                            25
Office of the Inspector General
Evaluation and Inspections Division
respondent reported that the error was “always” on the part of the licensee,
and only 2 percent (6 of 299) reported that the error was on the part of the
licensee “most of the time.”

      In contrast to the IOIs, all of the Special Agents that we interviewed
believed that the information they received from the NFRTR records checks
was accurate. The Special Agents request NFRTR records checks to
determine whether NFA weapons that they encounter during investigations
are registered and to whom. None of the Special Agents believed that they
had ever received incorrect information from the NFA Branch. One Special
Agent noted that it would be very difficult for NFA Branch staff to reach an
incorrect conclusion in a records search because he always provides them
with so much specific information about the weapon and the suspect that
the NFA Branch can always make a definitive conclusion about the
weapon’s and individual’s registration status.

       IOIs and Special Agents have different experiences with the accuracy
of the information they receive from the NFRTR because the method for
producing inventory reports for IOIs is different from the method for
conducting records checks for Special Agents. NFA Branch Specialists
produce inventory reports by running standard programs from the NFRTR
that generate lists of all the firearms that are supposed to be owned by a
specific licensee. 34 However, because of programming flaws in the NFRTR
(discussed later in the report) and delays in correcting previously identified
discrepancies, these inventory lists often contain errors. In contrast, NFA
Branch Specialists prepare records checks by performing numerous queries
on all available weapon and suspect search terms and individually reviewing
the results to see if the NFRTR contains any record that could pertain to the
weapon or suspect in question.

Discrepancies between the NFRTR and licensees’ inventories delay
completion of inspections and erode confidence in the NFRTR.

       We found that discrepancies between the NFRTR and licensees’
inventories are frustrating and time consuming for IOIs and are
disconcerting for licensees who can be referred for criminal investigation for
violations of the NFA and GCA discovered in compliance inspections.
According to the NFA Branch Chief, discrepancies between NFRTR inventory
reports and licensee inventories make the NFA Branch look incompetent
and can be disruptive to licensees’ operations.


       34 In 2006, the NFA Branch produced 530 NFRTR inventory reports. However,
some field offices and IOIs have read-only access to the NFRTR and can print out inventory
reports themselves.

U.S. Department of Justice                                                          26
Office of the Inspector General
Evaluation and Inspections Division
Discrepancies are frustrating and time consuming for IOIs.

       Some IOIs noted frustration over the NFA Branch’s failure to correct
identified discrepancies in the NFRTR before a licensee’s next compliance
inspection. Only five of the 10 IOIs that we interviewed said that
discrepancies were corrected in the NFRTR by the time of subsequent
inspections. 35 Forty-three IOIs commented in the survey that the NFA
Branch should make updates to the NFRTR in a timely fashion. NFA
Branch staff also are supposed to notify the IOIs who submit discrepancy
reports after corrections have been made, but IOIs told us that this is not
always done. One IOI we interviewed stated that it would be helpful to know
when and how discrepancies were resolved. In our survey, one IOI
commented, “I always have to close the inspection without ever knowing if
the problems were resolved.” The NFA Branch staff stated that they attempt
to minimize the instances in which discrepancies are not reconciled in the
NFRTR by the next inspection by completing the pending reconciliation
when notified by an IOI that another inspection has been scheduled.

       When we asked IOIs in our survey to tell us how errors and
discrepancies in NFRTR inventory reports affect their ability to carry out
compliance inspections, almost half of the respondents stated that
inspections take more time, and a quarter of respondents said that errors
called into question the accuracy of the information from the NFRTR. One
IOI noted in a survey response, “If an Investigator [IOI] cannot obtain an
accurate list of NFA weapons in an inventory, we cannot complete a proper
inspection and reconcile that inventory.” ATF managers, NFA Branch staff,
and field IOIs stated that the majority of discrepancies can be resolved
quickly if the licensees can prove ownership of NFA weapons in their
possession by producing the approved transfer and registration paperwork.
One former NFA Branch Specialist noted that while most discrepancies can
be resolved quickly, about one out of four may take an entire day to address
because staff must locate and review paper records to analyze a weapon’s
registration and transfer history.

     Many IOIs commented in the survey about the discrepancies
between the NFRTR reports and licensees’ inventories. For example,

        35 Under the Firearm Owners Protection Act, part of the Gun Control Act of 1986,

Congress mandated that ATF compliance inspections be done no more than once a year
and, at a minimum, must be done once every 3 years. An exception to the "once a year"
rule exists if multiple record-keeping violations are recorded in an inspection, in which case
the ATF may do a follow-up inspection within the next 12 months. However, a previous
OIG report (I-2004-005) found that most licensees are inspected infrequently or not at all.
 While ATF’s goal is to inspect each licensee at least once every 3 years to ensure that they
are complying with federal firearms laws, ATF is currently unable to achieve that goal,
partly because of resource shortfalls.

U.S. Department of Justice                                                             27
Office of the Inspector General
Evaluation and Inspections Division
one survey respondent stated, “I feel that immediate action should be
taken to correct any discrepancies noted during inspection.” Several
IOIs suggested that having an NFA Branch staff member dedicated to
serving as a contact for IOIs and resolving discrepancies would
improve the process. Other comments included:

       •   “We should have a standard procedure to report
           inconsistencies and to follow to find a remedy to those
           discrepancies. The procedure should require timelines for
           responses to IOI inventory requests and for the action
           taken regarding a discrepancy report.”

       •   “Implement a process where information that is obtained in
           the field and is forwarded to the NFA Branch, to correct
           discrepancies, is acted upon. Which should reduce the
           amount of time spent re-addressing previously identified
           discrepancies.”

       •   “Have NFA Branch report the resolution of discrepancies,
           that are found during inspections, back to the
           inspector/area office. I feel that a lot of investigators will
           just move on to the next assignment once NFA inventory
           discrepancies are reported and never consider if the
           discrepancies are resolved.”

       •   “More or new quality control procedures need to be in place
           to make sure that corrections to the NFRTR are made.”

       IOIs also expressed concern with the accuracy of the NFRTR in
general and want ATF to improve the quality of the data. An IOI
survey respondent stated, “I believe NFA items are the most important
area of regulation and we should strive for complete accuracy in this
realm.” When asked what suggestions they had for improving the
NFRTR inventory reports or the work of the NFA Branch, many IOIs
stated that the existing data in the NFRTR should be “cleaned up” and
the Branch should establish a system to double-check new data as it
is entered into the database. One of the IOIs we interviewed even
suggested that IOIs be assigned to “perform comprehensive
inspections of all licensees’ inventories that include NFA weapons to
ensure that all records in the database are accurate.”




U.S. Department of Justice                                                  28
Office of the Inspector General
Evaluation and Inspections Division
Discrepancies are disconcerting for federal firearms licensees.

       The two NFATCA representatives and one federal firearms licensee we
interviewed were very concerned with the accuracy of the NFRTR. Our
survey found that the IOIs were aware of licensees’ concerns.

      One of the NFATCA representatives who maintains a federal license
for NFA weapons estimated that during his compliance inspections the
NFRTR inventory reports were 25 to 30 percent inaccurate. This NFATCA
representative explained that NFA weapons dealers fear compliance
inspections because the NFRTR is inaccurate, not because their inventory
records are inaccurate. The NFATCA representatives stated that NFA
weapons dealers are concerned about NFRTR discrepancies being used by
ATF to seize weapons or issue violations against the dealer. One NFATCA
representative said that licensees that deal in NFA weapons “should not be
afraid of compliance inspections because their records are probably better
than ATF’s.”

      IOIs were aware of federal firearms licensees concerns about the
accuracy of the NFRTR. In responding to the survey question, “How do
errors and discrepancies in the NFRTR inventory reports affect the licensees
you inspect?,” IOIs stated that licensees are frustrated that the NFRTR is
inaccurate and the inspections difficult to complete, worried about being
investigated or cited with violations, and frustrated that their own records
are held to higher standards of accuracy and completeness than NFRTR
records. Some specific comments by the IOIs included:

       •   “When repetitive errors are found in the NFRTR, the
           licensees lose their confidence in the integrity of the
           system.”

       •   “While the burden of proof is generally placed upon the
           licensees to demonstrate that the firearms were properly
           transferred, incorrect information from the NFRTR can
           cause an undue burden for those licensees who have
           properly transferred the firearms yet must spend days or
           weeks searching for documentation to prove these
           transfers.”

       •   “The licensees get frustrated and assume that inspectors
           are inept just because of an error in the NFRTR inventory
           report. The licensees then tend to tune out any
           suggestions or advice we give to them to help them in
           remaining or becoming compliant.”


U.S. Department of Justice                                             29
Office of the Inspector General
Evaluation and Inspections Division
       •    “Licensees are upset, become very concerned, and fear
            any possible liability or action that might be erroneously
            taken against them as a result.”

Errors or discrepancies in the NFRTR have not resulted in inappropriate
criminal prosecutions of NFA weapons owners and licensees.

       Although letters from several citizens expressed concern that errors
and discrepancies in the NFRTR leave them vulnerable to unwarranted
administrative sanctions or criminal charges, we found this has not
occurred. While ATF can include NFA violations discovered during
compliance inspections on the Report of Violations, it cannot suspend or
revoke a federal firearms license or issue administrative sanctions based on
NFA violations alone. 36 According to the Deputy Chief, Field Management
Staff, Field Operations,

       ATF may revoke a federal firearms license for willful violation
       of the Gun Control Act (GCA). Further, the GCA specifies a
       suspension and fine authority for violation of certain violations
       of the permanent Brady [law] provisions. Although ATF IOIs
       commonly cite NFA dealers for violations of the regulations at
       27 CFR Part 479 [NFA], there is no revocation, suspension, or
       “administrative” fining authority for violations of the NFA. 37

      In 2006, ATF conducted 7,292 compliance inspections from which it
issued 12,176 violations. Of these, less than 1 percent (53) was issued for
NFA violations. In 2006, ATF issued an average of 1.7 violations per
inspection, but only 0.007 NFA violations per inspection. 38

      We also found that IOIs are referring cases to Special Agents
infrequently. When IOIs discover NFA weapons not registered to a licensee
(and the licensee’s paperwork does not satisfactorily resolve the


       36 ATF told us that violations of the NFA may be included in the Report of Violations

issued to an FFL without further action being taken. The specific circumstances of the
case and the discretion of the ATF field office and the U.S. Attorney’s office determines
whether further criminal action is taken.

       37 The Brady Handgun Violence Prevention Act of 1993 (Brady Act) (Public Law
103-159) established the National Instant Criminal Background Check System that federal
firearms dealers are required to contact before the transfer of any firearm to ensure that a
person receiving a firearm is not prohibited under the GCA from possessing firearms.

       38  ATF could not tell us exactly how many of the total number of federal firearms
licensees inspected actually have NFA weapons in their inventories, but estimates the
number as low.

U.S. Department of Justice                                                            30
Office of the Inspector General
Evaluation and Inspections Division
discrepancy) or other apparent deliberate violations of the NFA during
compliance inspections, they can refer the case to Special Agents in the
corresponding ATF field office. In our survey we asked IOIs how many times
in the past year they had referred a federal firearms licensee to an ATF
Special Agent based on a discrepancy between the NFRTR inventory report
and the licensee’s inventory. Of the 298 IOIs who responded to this
question, 91 percent (272) said they had made 0 referrals, 7 percent (20)
had made 1 referral, 1.6 percent (5) had made 2, and less than 1 percent (1)
had made 3. IOIs we interviewed emphasized that they refer cases only
when an NFA weapons registration in the NFRTR cannot be established
after discussions with the licensee, the NFA Branch, and extensive searches
of the NFRTR or when they suspect deliberate criminal activity involving
NFA weapons.

      We did not find evidence that errors in NFRTR records caused
inappropriate seizures or criminal charges against NFA weapons owners or
federal firearms licensees. In fact, we found that few federal firearms
licensees were criminally charged with NFA violations. Between 2000 and
2006, only 15 licensees were charged with violating 26 U.S.C. Chapter 53,
the chapter of the Internal Revenue Code that includes the NFA. This
represents only 6.5 percent of the total number of licensees (230) criminally
charged with any violation.

       We asked both ATF and the NFATCA (the representative organization
of the NFA weapons industry), to provide us with examples or cases in
which an NFRTR error resulted in a seizure of an NFA weapon or criminal
consequences. Neither ATF nor the NFATCA could provide any examples.
We reviewed ATF processes related to requesting records checks from the
NFRTR and determined that when an error is detected, the NFA Branch staff
thoroughly research the NFRTR and the imaging database to find out if a
weapon is actually registered. Additionally, the NFA requires owners to
retain the approved NFA weapons application form as proof of a weapon’s
registration and make it available to ATF upon request. If the NFA weapons
owner can produce the registration paperwork, ATF assumes the error is in
the NFRTR and fixes it in the database.

      However, NFA Branch staff’s errors in processing NFA weapon
applications have resulted in financial loss to individuals and licensees. The
NFATCA and ATF each provided an example:

       1. The NFA Branch incorrectly approved the sale (transfer) of a
          machine gun from a law enforcement agency to a federal firearms
          licensee. The licensee subsequently tried to sell (transfer) the
          weapon to another licensee. However, the NFA Branch discovered


U.S. Department of Justice                                              31
Office of the Inspector General
Evaluation and Inspections Division
          its original error and subsequently disapproved both the first and
          second transactions. The licensee was not allowed to retain
          possession of the machine gun, and the law enforcement agency
          did not have the funds to return the $10,000 paid by the licensee
          for the weapon.

       2. An NFA Branch Examiner processed an application to transfer an
          NFA weapon from a federal firearms licensee to another licensee.
          The licensee selling the weapon had purchased the weapon from a
          police department that had, in turn, purchased the weapon 10
          years ago from an importer. The Examiner who handled the
          original transaction should have stamped the approved application
          form “restricted” because only holders of certain federal firearms
          licenses can possess and transfer the weapon. Because the first
          application form was never stamped, the licensee did not know
          that he could only resell the weapon to certain license holders.
          The NFA Branch had to disapprove the licensee’s application to sell
          (transfer) the weapon.

NFA Branch Action to Address Backlog of Discrepancy Reports

      The NFA Branch was working to reduce the backlog of discrepancy
reports to be resolved. In October 2006, the backlog was 112 reports, and
by March 2007 had been reduced to 61 reports. In early 2007, the NFA
Branch Chief had assigned one NFA Branch Examiner to work part-time on
the backlog. This Examiner spends 50 percent of her time reconciling
discrepancies, and two other staff members (a Specialist and the NFA
Program Manager) reconcile inventory reports sporadically as their time
permits.

The NFRTR database has technical problems, and the NFA Branch
considers the programming to be flawed.

       We found that ATF has not updated the programming of the NFRTR
database platform, and the NFA Branch considers it to be flawed. The
NFRTR’s technical flaws introduce errors in records and make it more
difficult for NFA Branch staff to ensure that decisions based on NFRTR
reports and queries are correct.

      In 1983, ATF first created a database to track NFA weapons
applications and entered information into the database from hardcopy
applications received both prior to and after implementation of the
database. ATF converted the first database to an Oracle platform in 1997
and has not modified it since. NFA Branch staff stated that the Oracle


U.S. Department of Justice                                              32
Office of the Inspector General
Evaluation and Inspections Division
database is more accurate and easier to search than the old database;
however, several other Branch staff described it as obsolete or becoming
obsolete. For example, one Examiner described the NFRTR as “old,
antiquated, and not set up well.” Another NFA Branch Examiner
recommended giving the NFRTR “an IT upgrade.”

       Some IOIs also expressed concern and frustration about the NFRTR in
their responses to our survey. IOI comments about the NFRTR included:

       •    “Update the computer program to a 21st century
            capability . . . . [ATF should] stop operating like a third world
            Department of Motor Vehicles office.”

       •    “Hire more people and/or invest in new technology which
            will enable the NFA Branch to maintain accurate and up-to-
            date records.”

       •    “Revamp [the NFRTR] making it easier to verify its integrity,
            and spend more money on people to ensure it is maintained
            properly.”

       The NFA Branch Program Manager said that ATF suspended making
any database changes or enhancements to the NFRTR for the last 5 years
because ATF had initiated the Firearms Integrated Technology (FIT) project
that would encompass the NFRTR. 39 FIT was intended to integrate the
databases of the National Tracing Center, Firearms and Explosives Imports
Branch, and NFA Branch. FIT would ensure that the data from each
database was compatible for interoperability, but would not fix the
underlying software programming flaws in the NFRTR. ATF ceased
significant work on FIT because the funding had been reallocated and
exhausted by 2004 on implementing the Safe Explosives Act. 40 Any




       39 During the times when work was actively going on with the integration project,

any other maintenance or development work was halted because ATF’s information
technology security will not allow two different contractors to work on one application at
the same time.

       40  The Safe Explosives Act, enacted on November 25, 2002, expanded the ATF’s
licensing authority to include the intrastate manufacture, purchase, and use of explosives.
The act required ATF to inspect licensees’ manufacturing and storage facilities at least once
every three years and to conduct background checks on all licensees, as well as all
employees who have access to explosives as part of their work.



U.S. Department of Justice                                                            33
Office of the Inspector General
Evaluation and Inspections Division
continued work on FIT was dependent on additional funding. 41 Subsequent
funding requests for FIT were not successful. ATF requested additional
funding for FY 2008 to enhance the NFRTR, but the funding request was
not included in the President’s budget. 42

       While several NFA Branch staff described the database as “user
friendly,” they identified flaws that make it more difficult for Specialists and
Examiners to ensure that decisions based on NFRTR reports and queries
are correct. Flaws that impede the maintenance of accurate records and the
accuracy of searches include: (1) older NFRTR records have empty data
fields that can improperly exclude records from search results, (2) the
NFRTR allows separate records to be generated for a single weapon, (3) the
NFRTR does not have system controls over data entry, so consistent data
entry is not ensured, (4) the NFRTR does not always indicate the correct
owner of NFA weapons on queries and reports, and (5) when multiple NFA
weapons are registered on the same application form, changes in ownership
made to one of the weapon’s NFRTR record can affect the records of all of
the weapons registered on that form (a problem that recurs until the
weapon has been transferred from the manufacturer to two successive
owners).

Older NFRTR records have empty data fields.

       When the NFRTR was converted to an Oracle platform in 1997,
several new fields were added, including the applicant’s date of birth, Social
Security Number, Special Occupational Tax (SOT) status, business trade
name, and address. Records for NFA weapons registered before 1997 do not
contain data in any of the fields that were added in the 1997 conversion. In
addition, the pre-1997 NFRTR database had one field for “Name,” and if the
applicant had a trade name, NFA Branch staff entered only the trade name
(or the name of the company) in the “Name” field and not the applicant’s
name. As a result of empty fields, it is more difficult for Examiners to
compile complete weapon registration histories for weapons that were
registered before 1997 because there are fewer fields with data to search on;
thus, NFRTR searches may not locate some relevant records.

       41 At the point when congressionally earmarked funds where exhausted during

2005, ATF had completed the Functional Requirements Analysis and developed a prototype
for converting three hard copy forms to electronic forms for the NFRTR.

       42  ATF funded the development of FIT through congressional appropriations in
FY 2001 and FY 2002. In FY 2001, Congress appropriated $2 million for NFA Branch,
National Licensing Center, and Imports Branch IT improvements. ATF apportioned this
money to three initiatives within the FIT Project that were intended to standardize and
integrate data from the NFA Branch, Imports, and the National Licensing Center. In
FY 2002, Congress allocated another $2 million for the FIT Project.

U.S. Department of Justice                                                          34
Office of the Inspector General
Evaluation and Inspections Division
Some NFA weapons have multiple records in the NFRTR.

       NFA Branch staff stated that the NFRTR will split the record for a
weapon into two separate records if any specifications of the weapon, such
as the caliber or barrel length, differ in subsequent transfer applications
from that weapon’s existing record in the NFRTR. When this split happens,
Examiners see only part of the transfer history unless they find both parts
of the record that have been stored in the NFRTR database as the records of
two weapons. One Examiner described this problem by saying that “it’s
easy for data to hide” in the NFRTR and “you have to be very thorough.”
Another Examiner told us that sometimes when a record splits into two staff
members cannot search for the second record using the weapon’s serial
number, but must use the NFRTR-generated control number originally
assigned to the weapon. Examiners and Specialists must be aware that
more than one record could exist for the same weapon and search the
NFRTR for additional records that are “hiding” under slightly different serial
numbers or other characteristics. Examiners also must ensure that when
they add data to the record of an NFA weapon, the record does not split into
separate records for the same weapon.

The NFRTR does not have system controls over data entry, so consistency is
not ensured.

      The NFRTR is not programmed to control for incorrect or inconsistent
data entry. Several NFA staff noted the lack of automated edits as a
problem, reporting that the database allows wide variations in how data in
certain fields are entered. One IOI survey respondent commented, “The
NFRTR inventory [reports contain] codes or abbreviated manufacturer
codes, which do not seem to resemble the actual manufacturer of the
firearm.” One Examiner said that having drop-down lists for manufacturers
and corresponding model numbers would reduce the chance for mistakes.
For example, if an Examiner selected the Remington manufacturer code
from a list, then the NFRTR should be programmed to give the Examiner
only the model number choices that correspond to Remington. The NFRTR
also accepts special punctuation, which makes it more difficult to query the
database. For example, the NFRTR will accept the word “and” as well as the
ampersand symbol. As with split records, inconsistent data entry due to the
lack of built-in controls requires NFA Branch staff to perform many
searches using all possible permutations of the search terms to ensure they
have located the correct record.




U.S. Department of Justice                                              35
Office of the Inspector General
Evaluation and Inspections Division
The NFRTR does not always indicate the correct owner of weapons on
queries and reports.

       Many NFA Branch staff noted that the NFRTR does not always
indicate the correct owner of weapons on queries and reports. The NFA
Branch Program Manager stated that this problem was identified almost
immediately after the new NFRTR system was deployed in 1997, but the IT
staff was unable to correct the problem and ATF did not pursue resolution.

       The NFRTR was designed to automatically place the most recently
approved transaction at the top of a weapon’s record and to shade the
information about that transaction purple to clearly identify the current
owner when viewed on the computer screen. However, if a transfer of an
NFA weapon is canceled after the application has been entered into the
NFRTR and approved, the NFRTR will incorrectly list the transferee in the
most recently approved transaction as the current owner on printouts. NFA
Branch staff viewing the weapon’s record in the NFRTR can see all recent
transactions associated with the weapon and easily identify the true current
owner because the “status” field will indicate “void” for the transaction that
was canceled, even though the incorrect owner is shaded in purple. (Staff
members are trained to review the “status” field for all the transactions
listed on the screen.)

       Because the printed reports or queries only include the transaction
shaded in purple at the top of the record, the printouts will incorrectly
identify the current owner. Figure 4 shows an example of an NFRTR record
of a weapon for which the most recent transfer was canceled by the
applicant. Because the transfer from Robert Smith to John Doe was
canceled, the true current owner is still Robert Smith; however, the purple
shading indicates that John Doe is the current owner. John Doe also will
be listed as the current owner on NFRTR printed queries and reports.




U.S. Department of Justice                                              36
Office of the Inspector General
Evaluation and Inspections Division
    Figure 4: Screen View of an NFA Weapon’s Record in the NFRTR




       Ensuring the accuracy of the NFRTR record is the responsibility of the
Examiner, who must manipulate the system to change the current
ownership back to the actual owner, which will then move the correct
transaction to the top of the weapon’s record and shade it purple. If the
Examiner does not take these steps, the true current owner will not be
reflected in reports printed from the NFRTR.

When multiple NFA weapons are registered on the same application form,
modifications to one weapon’s record affect all of the weapons registered on
that form.

       Often firearms manufacturers will use the same application form to
register multiple NFA weapons (sometimes hundreds), and weapons owners
sometimes use the same form to register or transfer multiple NFA weapons.
Even though each weapon has its own record in the NFRTR, weapons
registered or transferred on the same form are initially linked by their
NFRTR-generated control number. This control number is based on the
form and not the weapon and applies to the records of all weapons
registered on that form. The link between weapons registered on the same
NFA weapon application is broken only after weapons have been transferred


U.S. Department of Justice                                             37
Office of the Inspector General
Evaluation and Inspections Division
to new owners two subsequent times. The weapons would then have their
own NFRTR-generated control numbers.

        This programming flaw is most evident when a transfer of a weapon is
canceled by the applicant and that weapon’s preceding transaction involved
multiple weapons registered or transferred on the same form. If no action is
taken to correct the record to show the true current owner, all NFRTR
queries and reports will incorrectly list the transferee from the canceled
transaction as the current owner. However, when an NFA Branch staff
member manually fixes the record to show the correct owner of the weapon,
the NFRTR will apply that change to all the weapons on the form, which are
still linked by the same control number. Because it takes a significant
amount of time and effort to ensure that only the relevant weapon on that
record is changed, Examiners often do not fix such records.

       The existence of these flaws requires NFA Branch staff to be attentive
to likely errors in the NFRTR and knowledgeable about how to identify and
correct them. Maintaining NFRTR accuracy depends on staff carefully and
thoroughly entering data, conducting searches, and correctly interpreting
search results. Examiners and Specialists do not necessarily reach the
correct conclusion about a weapon’s history or registration when their
searches of the NFRTR database do not take into account all possible
permutations of the name or search variable. This level of inquiry requires
Examiners and Specialists to conduct many NFRTR searches using different
search terms and variables in an attempt to discover all of the information
relevant to a registration or transfer of a particular weapon. Failure of
Examiners and Specialists to thoroughly search the NFRTR in this manner
can result in their forming incorrect conclusions about whether a
registration or transfer should be approved or how a NFA weapon’s record
should be updated.

NFA Branch Action to Address Technical Issues

     The NFA Branch is beginning to address some of the errors caused by
NFRTR programming flaws by creating an IT Specialist position. The NFA
Branch Chief told us he wants the IT Specialist to:

       •   Track branch productivity, application processing times by each
           type of form, the number of applications with pending status, and
           SOT reports;

       •   Review the NFRTR database to determine its full capability,
           including developing additional queries; and



U.S. Department of Justice                                               38
Office of the Inspector General
Evaluation and Inspections Division
       •   Determine the best approach to correcting errors in the NFRTR
           records.

      The Chief filled the IT Specialist position in February 2007 with an
NFA Branch Examiner who had information technology experience.
Because of a shortage of staff, as of March 2007 the IT Specialist was still
performing Examiner duties and was only conducting his IT Specialist
duties part-time.

ATF has not completed two vital projects to improve the NFRTR, which
limits the NFA Branch’s capability to correct or prevent discrepancies.

       Because of budget constraints, ATF has not completed two projects
that would improve the accuracy of the NFRTR’s records and increase the
efficiency of the NFA Branch. The projects are 1) scanning all NFA transfer
and registration documents into digital files, and 2) establishing an
electronic filing (e-Forms) system so that applicants with access to
computers can submit certain NFA transfer and registration applications
online.

       In its FY 2002 congressional appropriations, ATF received $500,000
specifically “to assist in such efforts as linkage technology, electronic filing,
and the use of contract employees with the aim of reducing processing times
and ensuring the completeness and accuracy of the NFRTR.” ATF used the
funds to supplement the contract for staff to image and index the NFA
applications. ATF also used the funds to develop the requirements
document for the development of an electronic filing system for NFA
Forms 2, 3, and 5 and a prototype system and to modify the prototype
based on feedback received from the NFA weapons industry.

ATF has a backlog of NFA weapons applications to be imaged and indexed.

       We found that as of October 2006, ATF had a 1-year’s backlog worth
of application forms to be imaged and indexed. The imaging database is an
important parallel system to the NFRTR with the goal of ensuring that all
NFA registration and transfer applications received by ATF since 1934 are
searchable and retrievable. NFA Branch staff use the imaging database to
easily locate specific forms when needed to process new NFA weapons
applications, verify the ownership and the complete transfer history of NFA
weapons, and verify whether certain weapons are or are not registered in the
NFRTR. As of October 2006, all NFA documents received from 1934
through November 2005 were imaged, and two contractors were assigned to
image NFA records received since then. In 2005, the NFA Branch had four
contractors working on imaging and indexing and a 6-month backlog.


U.S. Department of Justice                                                 39
Office of the Inspector General
Evaluation and Inspections Division
Budget cuts forced ATF to reduce the number of contractors from four to
two in June 2005, and as of October 2006 the Branch was falling
increasingly farther behind in indexing and imaging NFA weapons
application forms. The NFA Branch Chief told us that the Branch needs
additional imaging staff to eliminate the backlog. 43 ATF did not allot
additional funding for imaging NFRTR records for FY 2006 or FY 2007
because of budget constraints and competing priorities. Further, when ATF
had four contractors assigned to image NFA forms, they were able to check
that the information from the forms had been entered into the NFRTR
correctly as they indexed each form. The contractors have not been able to
perform this step since the number of contractors was reduced from four to
two.

ATF has not completed the e-Forms project.

       We found that since 2005, ATF has not had the funds to continue the
e-Forms project it initiated in 2004. ATF anticipated that this project would
reduce human errors in processing and entering NFA transfer and
registration applications, detect errors on applications so that incorrect
information was never entered into the NFRTR, improve communication
with importers and manufacturers by providing an online method for
checking the status of applications submitted electronically, and ultimately
reduce the NFA Branch’s data entry burden and require less Examiner time
for processing routine NFA applications. 44

      ATF began the e-Forms project in October 2004 (with congressionally
earmarked funds as part of FIT) to allow for electronic submission of NFA
Form 2 (Notice of Firearms Manufactured or Imported) and Form 3
(Application for Tax-Exempt Transfer of Firearm and Registration to Special
Occupational Taxpayer). In June 2005, ATF added Form 5 (Application for
Tax-Exempt Transfer and Registration of Firearm) to the project. 45 Eighty-
two percent of all NFA weapons applications the NFA Branch receives are on

        43 The contract covering imaging and indexing is managed by the National Tracing

Center. In 2005, 47 imaging contractors were laid off and were not replaced, and as a
result the number of contractors assigned to the NFA Branch was reduced.

       44 Bureau of Alcohol, Tobacco, Firearms and Explosives, NFA and e-Forms

Functional Requirements Document (December 19, 2005).

       45  The Functional Requirements Document for the e-Forms project explained that
the electronic submission for Form 5 applications would only apply to federal firearms
licensee-to-government transactions because transactions to non-licensees require the
applicants to submit photographs and fingerprint cards. Creating a secure way for those
documents to be submitted electronically was beyond the scope of the project, so paper
forms were to continue to be used for such transactions.



U.S. Department of Justice                                                         40
Office of the Inspector General
Evaluation and Inspections Division
Form 2s, 3s, and 5s, and very few of them are disapproved. 46 If a
significant portion of Form 2s, 3s, and 5s was submitted electronically,
Examiners would be able to spend more of their time resolving technical
questions and processing complicated NFA weapon applications rather than
routinely processing these less complex forms.

      In our interviews with NFA Branch staff, several staff members
mentioned that establishment of an e-Forms system would enhance the
NFRTR and help ensure its reliability. One Specialist explained that
“e-Forms would make things easier for the ATF and the external customer”
because it would force applicants to provide standardized information and
applicants would no longer have to risk forms getting lost in the mail. ATF’s
Deputy Assistant Director of the Office of Enforcement Programs and
Services expected that an e-Forms system would reduce human error in
entering the data from the paper forms into the NFRTR.

      In February 2006, ATF demonstrated the prototype of the e-Forms
system at the Shooting, Hunting, and Outdoor Trade (SHOT) show, where
NFA weapon buyers and sellers expressed eagerness to see it
implemented. 47 In our interview, a representative of the NFATCA
commented on the e-Forms project saying, “I cannot emphasize enough the
need for funding.” He believed that e-Forms would speed the NFA weapon
application processing and approval process.

        According to the Assistant Director, Office of Enforcement Programs
and Services, ATF could not continue funding the project while it was still in
the prototype phase because of budget constraints. ATF estimates that
$13,964,870 will be needed to establish the e-Forms system and to operate
it for the first 2 years and that $200,000 will be needed to operate it each
year thereafter. The Assistant Director stated that ATF is working closely
with the NFA weapons industry to develop alternatives for accomplishing
the e-Forms project. He did not know when the project will resume but he
believes it will get done because of its importance to streamlining the
application process.




       46  In 2006, 45.7 percent (183,932) of the forms the NFA Branch received were
Form 2s, 12.7 percent (50,971) were Form 3s, and 23.47 percent (94,367) were Form 5s.
Of these, the NFA Branch disapproved 8 Form 2s, 95 Form 3s, and 94 Form 5s.

       47  The SHOT Show, sponsored by the National Shooting Sports Foundation, is one
of the largest trade shows for the shooting sports and hunting industries. It includes
expositions of firearms, ammunition, archery, outdoor apparel, optics, camping and related
products and services.

U.S. Department of Justice                                                          41
Office of the Inspector General
Evaluation and Inspections Division
              CONCLUSIONS AND RECOMMENDATIONS


      We concluded that since 2004 the NFA Branch has reduced the
overall average processing time by more than two thirds for forms used most
by individual weapons owners and federal firearms dealers. According to
members of the NFA weapons industry and ATF IOIs and Special Agents,
the NFA Branch also has improved its responsiveness to customer service
inquiries and requests for information from the NFRTR. In general,
comments from individuals we interviewed external and internal to ATF
were favorable about the NFA Branch’s service and efforts to maintain the
NFRTR. However, we found that the ATF website is generally difficult to
navigate and finding NFA information is challenging for NFA Branch
customers.

       Despite the significant improvements, management deficiencies and
technical software flaws contribute to errors in the NFRTR database and
affect its reliability as a regulatory tool for ATF IOIs. For example, the NFA
Branch staff do not process applications or enter data into the NFRTR in a
consistent manner. The NFA Branch also has a backlog of record
discrepancies that it is not able to resolve in a timely manner. Further, the
NFRTR database has software programming flaws that can cause errors in
records and reports.

      Despite these problems, we found no evidence that individual
weapons owners and federal firearms licensees had been charged
inappropriately with criminal violations because of errors in the NFRTR.

      We concluded that the NFA Branch has not fully established an
adequate management infrastructure for ensuring the integrity of the
NFRTR and the integrity of the decisions based on NFRTR data. The NFA
Branch does not have sufficient standard operating procedures for working
with the NFRTR and processing applications. The Branch also lacks
uniform training on procedures for NFA Branch staff members and
systematic communications methods for managers to keep staff members
continuously informed of procedures and NFA issues. As a result, staff
members learned about procedures in an ad hoc manner, were not fully
familiar with the NFRTR and the NFA, and did not have all the information
necessary to accomplish their duties. The NFA Branch Chief recognized
these problems and was working to update and expand written procedures
as well as to improve communication with staff and to provide training
about NFA weapons and NFA-related issues.




U.S. Department of Justice
Office of the Inspector General                                          42
Evaluation and Inspections Division
       Further, we concluded that the NFA Branch and ATF headquarters
have not taken sufficient action to address other longstanding management
and technical issues affecting the NFRTR – a backlog in correcting errors
identified during compliance inspections of federal firearms licensees,
technical programming flaws that create errors, and slow or no progress on
important projects that could improve application processing.

       The NFA Branch does not promptly correct errors in NFRTR records
identified by IOIs when conducting compliance inspections of federal
firearms licensees. Discrepancies between the NFRTR data and licensees’
actual inventories slow completion of inspections and are disconcerting for
licensees because they fear sanctions for violations of the NFA.

       ATF also has not updated the programming of the NFRTR database
platform. While NFA Branch personnel described the database as “user
friendly,” the NFRTR has incomplete data and logic flaws that produce
inaccurate results in reports and queries.

       Moreover, ATF has not completed two projects funded initially in
FY 2002 that would improve the accuracy of the NFRTR and increase the
efficiency of the NFA Branch. ATF has a backlog of NFA weapons transfer
and registration documents to scan into digital files and index in a database
(called the “imaging” database). With the imaging database, NFA Branch
staff can electronically search for information not available in the NFRTR
and needed for the complete transaction history of registered NFA weapons.
ATF also has not implemented e-Forms, a system that would allow
applicants to submit NFA transfer and registration forms online. The
e-Forms project would streamline the application process, reduce
application errors, and reduce NFRTR data entry errors. With these
improvements, the NFA Branch could devote more resources to fixing the
backlog of existing errors in the NFRTR. However, funding constraints have
slowed or stopped progress on the projects.

       Although many of the letters from citizens that prompted our review of
the NFRTR, as well as comments that we received from representatives of
the NFATCA, indicate concern that errors in the NFRTR can lead to unjust
sanctions and criminal charges, we concluded, based on ATF records and
interviews, that this has not occurred. Further, NFATCA representatives did
not provide us with any examples of instances in which inaccuracies in the
NFRTR resulted in weapons being inappropriately seized from NFATCA
members.




U.S. Department of Justice
Office of the Inspector General                                        43
Evaluation and Inspections Division
       To assist in the improvement of the NFRTR, we recommend that ATF:

       1. Improve the ATF website by making it easier for the public to find
          NFA information, such as frequently asked questions, application
          forms and instructions, NFA Branch contact information, and the
          NFA handbook.

       2. Develop and disseminate to all NFA Branch staff a comprehensive
          standard operating procedures manual that includes all NFA
          weapons application processes, NFRTR processes, and data entry
          codes and abbreviations.

       3. Develop uniform and structured training for new staff members
          that includes standard operating procedures and hands-on
          experience with the NFRTR. Ensure that all NFA Branch staff
          members attend the training and that the staff trainers are
          themselves properly trained. Provide training for the Section
          Chiefs on supervisory techniques.

       4. Establish regular and recurring methods of communication to NFA
          Branch staff.

       5. Resolve discrepancies between the NFRTR and inventories of
          federal firearms licensees in a timely manner.

       6. Develop and implement an action plan to fix technical
          programming flaws and errors in the NFRTR.

       7. Develop and implement an action plan for eliminating the backlog
          of imaging and indexing forms for the imaging database.

       8. Develop and implement an action plan for completing the e-Forms
          project.




U.S. Department of Justice
Office of the Inspector General                                         44
Evaluation and Inspections Division
              APPENDIX I: NFA APPLICATION FORMS AND
                     TRANSACTION PROCESSES


         This appendix outlines all the application forms and processes needed
  by manufacturers, makers, dealers, importers, and individuals for
  registering and transferring NFA weapons.

                      Table 4: NFA Weapon Application Forms

 Form                   Use                    Fee            Requirements            Applicant

          Application to Transport
Form
          Interstate or to Temporarily         None                                Individual
5320.20
          Export Certain NFA Firearms
                                                          •   Applicant
                                                              Photograph
          Application to Make and
Form 1                                         $200       •   Fingerprint Cards    Individual
          Register a Firearm
                                                          •   Signed
                                                              Certification
                                                                                   Dealer,
          Notice of Firearms
Form 2                                      $200 or $5                             Manufacturer,
          Manufactured or Imported
                                                                                   Importer
          Application for Tax-Exempt
                                                                                   Dealer,
          Transfer of Firearm and             Tax
Form 3                                                                             Manufacturer,
          Registration to Special            Exempt
                                                                                   Importer
          (Occupational) Taxpayer
                                                          •   Applicant
          Application for Tax Paid                            Photograph
Form 4    Transfer and Registration of a    $200 or $5    •   Fingerprint Cards    Individual
          Firearm                                         •   Signed
                                                              Certification
                                                                                   Individual,
          Application for Tax-Exempt
                                              Tax                                  Dealer,
Form 5    Transfer and Registration of a
                                             Exempt                                Manufacturer,
          Firearm
                                                                                   Importer
                                              None if                              Individual,
          Application and Permit for                      Proof of exportation
                                              proof of                             Dealer,
Form 9    Permanent Exportation of a                      provided to ATF within
                                            exportation                            Manufacturer,
          Firearm                                         6 months
                                            is provided                            Importer

                                                                                   Federal, Local,
          Application for Registration of
                                                                                   or State
Form 10   Firearms Acquired by Certain         None
                                                                                   Department or
          Government Entities
                                                                                   Agency




  U.S. Department of Justice
  Office of the Inspector General                                                        45
  Evaluation and Inspections Division
Manufacture/Making

       Individuals may apply to make and register an NFA weapon using
Form 1. An individual applicant must pay a $200 “making” tax and submit
a photograph, two fingerprint cards, and a certification by the applicant’s
local Chief of Police stating that the applicant is in compliance with state
and local law. Individual applicants undergo a background check before the
application is approved. Licensed manufacturers may register a new NFA
weapon using Form 2. Manufacturers, dealers, and importers must have a
background check to obtain their licenses and do not need to repeat a
background check for each application. A newly made NFA weapon must be
registered within 24 hours of its manufacture.

Transfers

       Individual weapons owners may apply to transfer an NFA weapon
using Form 4. A licensed manufacturer may apply to transfer an NFA
weapon using Form 3 or Form 5. Licensed manufacturers, dealers and
importers use Form 3 to transfer weapons to other manufacturers in a tax-
exempt transaction. Form 5 can be used for several reasons: to transfer a
registered NFA weapon to a government agency, to transfer an unserviceable
NFA weapon, to temporarily transfer an NFA weapon for repair, and to
distribute an NFA weapon to a lawful heir as part of an estate. A weapon
transfer to an individual requires additional information to be submitted: a
local law enforcement certification, a current photograph of the applicant,
and two fingerprint cards. All transferred NFA weapons are subject to a
transfer tax of $200 except for those classified as “any other weapon,” which
are subject to a $5 transfer tax. Once the transfer application has been
submitted, approved, and returned to the transferor by the NFA Branch, the
weapon must be transferred immediately to the transferee.

Sales Samples

      The sale or transfer of machine guns is restricted by the NFA and
Section 922 (o) of the GCA. Machine guns that were lawfully registered
before 1986 (known as pre-86 guns) are transferable to any person in
compliance with NFA regulations. Machine guns that were manufactured
after May 19, 1986, or were not registered prior to this date, are known as
post-86 guns and may only be manufactured and registered for official use
within law enforcement agencies or as sales samples by dealers.




U.S. Department of Justice
Office of the Inspector General                                        46
Evaluation and Inspections Division
Imports/Exports

       NFA weapons may be imported for use by the U.S. government or any
state law enforcement agency. They also may be imported for scientific or
research purposes, or for testing or use as a model by manufacturers,
importers, or dealers who are qualified to possess these weapons. Post-86
machine guns are subject to Section 922 (o) of the GCA and cannot be
imported for scientific, research, testing or model purposes.

       Weapons imported by a manufacturer, dealer, or importer are
released from Customs using Form 6 and must be registered on Form 2 no
later than 15 days after the weapons are released. Weapons imported by
the U.S. government for official use are registered on Form 10.

       Exported weapons must be filed on Form 9. Their NFRTR records are
updated to reflect their exported status. The transferor must provide the
NFA Branch with documentation that the firearm has been exported within
6 months of exportation. Examples of this documentation include a
certificate of exportation or mailing, or a certificate of landing signed by a
Customs official of the country to which the firearm has been sent. The
exportation of an NFA weapon is tax-exempt unless the exporter fails to
provide proof of exportation to the NFA Branch.

Registration by Law Enforcement Agency

       State and local law enforcement offices may register NFA weapons on
Form 10 for official use by an entity of the U.S. government. These agencies
may register previously unregistered weapons obtained by seizure,
forfeiture, or abandonment. Once they are registered on Form 10, they may
only be transferred between U.S. government agencies.

Temporary Transport

      Individual weapons owners may apply to transport an NFA weapon in
interstate or foreign commerce using a Form 5320.20. This form must be
approved by the NFA Branch before the weapon is transported and may be
approved for continual transport of the same weapon to the same location
for up to one year.




U.S. Department of Justice
Office of the Inspector General                                          47
Evaluation and Inspections Division
     APPENDIX II: OIG SURVEY QUESTIONS TO INDUSTRY
               OPERATIONS INVESTIGATORS




U.S. Department of Justice
Office of the Inspector General                  48
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       49
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       50
Evaluation and Inspections Division
    APPENDIX III: THE BUREAU OF ALCOHOL, TOBACCO,
         FIREARMS AND EXPLOSIVES’ RESPONSE




U.S. Department of Justice
Office of the Inspector General                 51
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       52
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       53
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       54
Evaluation and Inspections Division
U.S. Department of Justice
Office of the Inspector General       55
Evaluation and Inspections Division
      APPENDIX IV: OIG’S ANALYSIS OF THE BUREAU OF
           ALCOHOL, TOBACCO, FIREARMS AND
                  EXPLOSIVES’ RESPONSE


       On May 8, 2007, the OIG sent a copy of the draft report to the Bureau
of Alcohol, Tobacco, Firearms and Explosives (ATF) with a request for
written comments. In a memorandum dated June 13, 2007, ATF agreed
with the report’s eight recommendations but did not describe the actions it
had taken or planned to take to implement the recommendations. As a
result of ATF’s response, the recommendations are resolved and remain
open. The ATF response also discussed technical and factual matters, and
we made revisions to the report to address them where appropriate.

       Recommendation 1. ATF should improve the ATF website by making
it easier for the public to find National Firearms Act (NFA) information, such
as frequently asked questions, application forms and instructions, NFA
Branch contact information, and the NFA handbook.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with documentation that the ATF website has been changed to make it
easier to find NFA information by September 30, 2007.

      Recommendation 2. ATF should develop and disseminate to all NFA
Branch staff a comprehensive standard operating procedures manual that
includes all NFA weapons application processes, NFRTR processes, and data
entry codes and abbreviations.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with a copy of the standard operating procedures manual by September 30,
2007.




U.S. Department of Justice
Office of the Inspector General                                         56
Evaluation and Inspections Division
       Recommendation 3. ATF should develop uniform and structured
training for new staff members that includes standard operating procedures
and hands-on experience with the NFRTR. ATF should ensure that all NFA
Branch staff members attend the training and that the staff trainers are
themselves properly trained. ATF should provide training for the Section
Chiefs on supervisory techniques.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

       OIG Analysis. As mentioned in the report, ATF began offering
training opportunities to NFA Branch staff members during our review,
which was a positive development. To close this recommendation, please
provide the OIG with a copy of the NFA Branch training plan by September
30, 2007.

     Recommendation 4. ATF should establish regular and recurring
methods of communication to NFA Branch staff.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. The NFA Branch began holding monthly staff meetings
with Section Chiefs and Examiners during our review, which was a positive
development. To close this recommendation, please provide the OIG with
copies of subsequent meeting minutes or agendas and the plan for
establishing other regular forms of communication by September 30, 2007.

    Recommendation 5. ATF should resolve discrepancies between the
NFRTR and inventories of federal firearms licensees in a timely manner.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with the status of the backlog of discrepancies between the NFRTR and the
federal firearms licensees’ inventories as well as ATF’s plan for resolving the
backlog in a timely manner by September 30, 2007.


U.S. Department of Justice
Office of the Inspector General                                           57
Evaluation and Inspections Division
      Recommendation 6. ATF should develop and implement an action
plan to fix technical programming flaws and errors in the NFRTR.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with the action plan and the status of actions for fixing technical
programming flaws and errors in the NFRTR by September 30, 2007.

      Recommendation 7. ATF should develop and implement an action
plan for eliminating the backlog of imaging and indexing forms for the
imaging database.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with the action plan and the status of actions for eliminating the backlog of
imaging and indexing forms for the imaging database by September 30,
2007.

      Recommendation 8. ATF should develop and implement an action
plan for completing the e-Forms project.

       Status. Resolved – open.

     Summary of the ATF Response. ATF concurred with this
recommendation.

      OIG Analysis. To close this recommendation, please provide the OIG
with the action plan and the status of actions for completing the
e-Forms project by September 30, 2007.




U.S. Department of Justice
Office of the Inspector General                                         58
Evaluation and Inspections Division
